U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           INTERNATIONAL TRADE
             ADMINISTRATION


      Commerce Can Further Assist U.S.
               Exporters by Enhancing
         Its Trade Coordination Efforts
      Final Inspection Report No.IPE-18322/March 2007




                   PUBLIC RELEASE



                Office of Inspections and Program Evaluations
                                         <*EHT OF   b

                                       8 #!         *$*   UNITED STATES DEPARTMENT OF COMMERCE
                                                          The Inspector General
                                                          Washington, D.C. 20230


March 30,2007

MEMORANDUM FOR:               Franklin L. Lavin
                              Under Secretary for International Trade

                              Michelle OYNeill
                              Deputy Under Secretary for International Trade

                              Israel Hernandez
                              Assistant Secretary for Trade Promotion and Director General of
                                the U.S. and Foreign Commercial Service

FROM:

SUBJECT:
                                             % &w
                              Johnnie E. Fr ier

                                                                              U
                                                                                   by Enhancing Its


As follow-up to our February 26,2007, draft report, we are pleased to provide you with our final
report evaluating various aspects of Commerce's trade promotion efforts and the coordination of
those efforts with other members of the Trade Promotion Coordinating Committee (TPCC), state
trade offices, and other trade partners. We have considered your detailed comments in preparing
our final report, as well as those provided by the Under Secretary for Economic Affairs, the
Director of the National Institute of Standards and Technology, and the Minority Business
Development Agency's Office of Financial Management. All of the comments that we received
on our draft report are attached in their entirety as appendices to this report.

Our report responds to an August 2006 request from three members of the U.S. House of
Representatives, including the then-Chairman of the House Small Business Committee. During
our review, we found that ITA maintains strong relationships with various trade partners, but
opportunities exist for even greater collaboration, particularly through the joint State-Commerce
partnership post program. We also found that improvements are needed in ITA's Internet
resources, its process for identifyrng and communicating trade leads, and the Commercial
Service's operations at multilateral banks.

Additionally, our final report notes that CS' proposed restructuring plan, as announced on March
28,2007, will undoubtedly have a substantial impact on State Department staffing requirements
at many of the affected embassies and consulates. We trust that ITA and CS will continue to
coordinate such reallocations of its overseas staff with the State Department to ensure that State
can take account of such changes when it develops its own staffing plans (see page 34).

The report presents a number of recommendations to enhance ITA's trade promotion efforts,
which are summarized on pages 53-56. We are pleased to note that ITA has begun to address
many of these recommendations, as noted in your response to our draft report. We request that
U.S. Department of Commerce                                                                                       Final Report IPE-18322
Office of Inspector General                                                                                                  March 2007

                                                    CONTENTS
Executive Summary ......................................................................................................................... i
Background ......................................................................................................................................1
Objectives, Scope, and Methodology ..............................................................................................6
Observations and Conclusions.........................................................................................................8
I.      Opportunities Exist for Greater Collaboration with Trade Partners .......................................8
           A. The Trade Promotion Coordinating Committee should further promote
              interagency coordination................................................................................................8
           B. ITA should enhance its coordination with other Commerce Bureaus .........................11
           C. Commerce works effectively with many state trade agencies, but a sense of
              competition hinders collaboration in some cases.........................................................12
           D. The potential exists to better leverage District Export Council resources...................14
           E. ITA should better coordinate its own multiple client outreach efforts ........................16
II.     Commerce and the State Department Should Strengthen their Cooperative Efforts to
        Support Partnership Posts .....................................................................................................21
           A. Active partnership posts are an important part of federal trade promotion efforts......21
           B. The partnership post program remains an informal interagency working
              relationship...................................................................................................................22
           C. CS’ role in supporting partnership posts should be clearly defined ............................24
           D. A Commerce-State agreement is needed to address specific business
              processes at the partnership posts ................................................................................26
           E. Collaboration on information technology and market research should
              be expanded .................................................................................................................29
           F. USEAC staff could benefit from specific information on the individual
              partnership posts ..........................................................................................................30
III. Despite Recent Progress, ITA Can Further Improve the Effectiveness of Its
     Internet Trade Promotion Resources ....................................................................................35
           A. Decision-making responsibility for Internet content issues should be clarified ..........35
           B. The presentation and usability of ITA websites have improved but much work
              remains.........................................................................................................................36
           C. Export.gov needs to be a one-stop resource for federal trade assistance.....................38
IV. Identification and Communication of Trade Leads Should be Improved.............................41
           A. Trade leads are useful but result in few direct export transactions..............................41
           B. The TPCC trade lead database should contain a comprehensive listing of
              federal export opportunities .........................................................................................41
U.S. Department of Commerce                                                                                   Final Report IPE-18322
Office of Inspector General                                                                                              March 2007

         C. Better technology and specificity could improve the usefulness of the TPCC
            database of trade leads .................................................................................................44
V.     CS Can Better Communicate Trade Opportunities at the Multilateral
       Development Banks..............................................................................................................47
         A. CS should better define trade finance and direct procurement opportunities
            at the banks ..................................................................................................................47
         B. CS can further improve its outreach on development bank trade opportunities..........49
Summary of Recommendations.....................................................................................................53
Appendix A: ITA Management Response to OIG Draft Report ...................................................57
Appendix B: ESA Management Response to OIG Draft Report...................................................73
Appendix C: NIST Management Response to OIG Draft Report .................................................75
Appendix D: MBDA Management Response to OIG Draft Report ..............................................76
U.S. Department of Commerce                                                            Final Report IPE-18322
Office of Inspector General                                                                       March 2007

                                     EXECUTIVE SUMMARY

In August 2006, three members of the U.S. House of Representatives, including the Chairman of
the House Small Business Committee, asked the Commerce Inspector General to review certain
aspects of the Department’s efforts to promote export opportunities for small businesses and how
it coordinates its trade promotion efforts with other federal government offices and the private
sector. The requestors also asked the inspectors general of the Departments of State,
Agriculture, and the Treasury; the Small Business Administration; the U.S. Agency for
International Development; and the Millennium Challenge Corporation to conduct similar
reviews in their agencies. The Commerce Office of Inspector General (OIG) coordinated its
review efforts with the other six OIGs, as appropriate.

Commerce’s International Trade Administration (ITA) leads the federal government’s export
promotion efforts. The U.S. Commercial Service (CS) is ITA’s chief export promotion
organization. 1 CS has a network of trade specialists located in 107 U.S. cities and more than 80
countries worldwide to assist U.S. exporters and represent U.S. commercial interests abroad.
Other Commerce organizations also play a role in assisting exporters, including ITA’s
Manufacturing and Services and its Market Access and Compliance offices, the Minority
Business Development Agency (MBDA), the National Institute of Standards and Technology
(NIST), the U.S. Patent and Trademark Office (USPTO), and the Bureau of Industry and
Security (BIS).

In 1992, Congress established the Trade Promotion                 “The trade promotion agencies
Coordinating Committee (TPCC) to provide a                        of the Federal Government will
unifying framework for federal export promotion and               continue to be a force for
financing efforts. Among its other activities, the                achieving more strategic and
TPCC is required to submit an annual National                     effective coordination…But
                                                                  this year and in the years to
Export Strategy to Congress. 2 The Secretary of
                                                                  come, the agencies will also
Commerce serves as the chairman of the TPCC,
                                                                  increasingly reach out to, and
which also includes 19 other federal agencies with
                                                                  rely upon, new partners to
responsibility for some aspect of promoting U.S.
                                                                  promote greater participation
business overseas. The TPCC secretariat currently                 of U.S. companies in the global
reports to Commerce’s CS organization.                            economy.”

Our review focused on (1) Commerce’s coordination           -Carlos M. Gutierrez, Secretary of
on export promotion with federal and state agencies         Commerce, introducing The 2006
and other stakeholders, and (2) Commerce’s efforts to       National Export Strategy
identify and communicate export opportunities or
trade leads and export-related information via the Internet or other means. We also reviewed
trade promotion practices in select foreign countries to identify innovative practices that might
be relevant for U.S. trade promotion efforts. Our specific observations are as follows:



1
 The U.S. Commercial Service is also referred to as the U.S. and Foreign Commercial Service.
2
 The OIGs from several other TPCC agencies have identified some concerns with the current process of drafting
The National Export Strategy. We plan to highlight those concerns in a separate memorandum to the Department.


                                                   i
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

Strong partnerships facilitate many of Commerce’s trade promotion efforts. We found that
Commerce works closely with many partners, including other federal agencies, state and local
government agencies, and private sector organizations. Commerce’s domestic U.S. export
assistance centers (USEACs), in particular, maintain active partnerships with local and national
organizations. The TPCC Secretariat is active in working with other agencies on various trade
promotion priorities. Despite these cooperative relationships, however, we found that further
collaboration in some areas could enhance Commerce’s trade promotion efforts.

Opportunities exist for greater collaboration with trade partners. We found that regular
communication among the TPCC agencies on specific trade promotion issues would strengthen
interagency collaboration. Such issues include identifying and communicating trade leads,
delivering information and services for exporters via the Internet, providing trade finance
assistance to U.S. companies, and developing trade capacity building programs. The TPCC has
not developed any working groups or other forums that regularly meet to improve interagency
coordination on these issues.

Additionally, many state governments offer services to companies similar to those offered by
CS, and, in some cases, a sense of competition hinders collaboration. Cooperation between CS
and many state trade offices is excellent, but greater efforts by CS may further facilitate CS-state
cooperation. Such efforts could include inviting the states’ participation in the Commerce-
organized councils of local exporters and international trade professionals (district export
councils) and including them in TPCC training and ITA industry teams. CS should also establish
procedures for sharing export success credits with state trade offices.

Commerce should also seek to further engage the 58 district export councils (DECs) and their
more than 1,600 members who have substantial experience in international trade. Because many
of the councils are currently inactive and play a limited role in supporting CS’ trade promotion
efforts, there may be greater opportunities for CS to help energize and leverage the resources of
the councils. CS has begun to evaluate how the DECs could better support trade promotion
efforts, but it has not yet developed a plan that defines their role in trade promotion efforts and
how the councils can provide meaningful feedback to CS on the value of its products and
services for exporters. CS also has not updated its District Export Council Handbook, which
could provide additional guidance to the council members and the USEAC staff. Because the
DECs typically represent small and medium-sized companies, it would be valuable for a national
DEC representative to be appointed to the President’s Export Council, which advises the
President on export-related issues but whose current membership includes few representatives of
larger companies.

Finally, increased coordination between different organizations within the Commerce
Department could also enhance trade promotion efforts. There are opportunities for CS to
further improve its coordination with the Manufacturing Extension Partnership (MEP),
administered by the National Institute of Standards and Technology (NIST), and the Minority
Business Development Agency (MBDA) on recruiting for trade missions, trade events, and
information sessions, and providing business assistance to local companies. In addition, CS
could regularly include local MBDA and MEP offices in the district export councils meetings.
Greater coordination among these three Commerce agencies should help each agency improve its



                                             ii
U.S. Department of Commerce                                                 Final Report IPE-18322
Office of Inspector General                                                            March 2007

export assistance to small and medium-size companies. CS could also work more closely with
STAT-USA, part of Commerce’s Economics and Statistics Administration (ESA), on identifying
export opportunities of value to U.S. companies. Within ITA, greater coordination on client
outreach efforts by its various offices would avoid duplication and add value to these efforts.
(See page 8.)

Commerce and the State Department should strengthen their cooperative efforts to
support partnership posts. In countries where CS does not maintain an office, the State
Department is responsible for representing U.S. commercial interests and assisting U.S.
exporters. The countries served by State’s economic and commercial sections in the U.S.
embassy, commonly referred to as partnership posts, are generally smaller, more difficult export
markets. These posts can best serve U.S. exporters by maintaining an active partnership with the
nearby CS post that has regional responsibility for the partnership post’s territory and with the
USEACs, which work directly with companies that may be interested in pursuing business
opportunities in countries served by partnership posts.

Many partnership posts provide assistance to U.S. exporters and work closely with some
USEACs. However, better coordination between Commerce and State would improve the
effectiveness of export assistance at the partnership posts. Commerce and State have discussed
the partnership program extensively at the working level, but have never formally agreed on how
the program should be coordinated and what their respective responsibilities are for supporting
the commercial function at the partnership posts. Lacking such an agreement and corresponding
guidance from CS and State management, some confusion exists among CS and State officers
about their own roles and responsibilities to support the partnership posts and export promotion
efforts in the partnership post countries.

CS management needs to provide its posts with clear guidance on their role in supporting
partnership posts, and should ensure that such support is recognized by CS’ performance
measures. CS can strengthen partnership post operations by (1) providing these posts better
access to CS’ information technology (IT) resources, (2) integrating CS’ and State’s commercial
websites, (3) coordinating market research efforts, and (4) ensuring that the performance
measures for CS officers and staff recognize their work to support partnership posts. CS and
State need to develop a formal agreement that establishes a joint planning mechanism for
partnership post operations, outlines payment procedures and quality standards for services
provided at partnership posts, establishes an appropriate training program for partnership post
staff, and clarifies export success reporting procedures for partnership post exports. CS should
also work with State to provide additional information on partnership post services to its USEAC
staff and open communication channels between CS’ Office of Domestic Operations and State’s
Bureau of Economic and Business Affairs. (See page 21.)

Despite recent progress, ITA can further improve the effectiveness of its Internet trade
promotion resources. Commerce has recently improved its Internet resources for U.S.
companies. The websites maintained by ITA contain a wealth of information to help U.S.
companies expand their exports. However, more could be done to clarify the decision-making
responsibility for organizing Internet content within ITA. Many overlapping websites still exist
within the bureau, requiring exporters to visit numerous sites to obtain comprehensive



                                           iii
U.S. Department of Commerce                                                       Final Report IPE-18322
Office of Inspector General                                                                  March 2007

information on specific issues. In addition, export.gov, the TPCC’s federal Internet portal
managed by ITA, contains limited information from other TPCC agencies. Commerce needs to
work with these agencies to discuss how to better coordinate federal Internet resources for
exporters. (See page 35.)

Identification and communication of trade leads should be improved. Most CS trade
specialists noted that trade leads result in few direct export successes, but they still felt that trade
leads (descriptions of specific export opportunities) can assist trade promotion efforts. However,
we found that CS could make trade leads more useful by improving the processes and
technology used to collect the leads from federal agencies and communicate them to exporters.

Currently, the database on the TPCC Internet portal only contains trade leads from CS overseas
offices and from some State Department partnership posts. Several other TPCC agencies as well
as some other Commerce organizations have information on substantive export opportunities that
could be included in the TPCC trade lead database. Instead of aggregating these leads on one
federal website, however, these other organizations are posting trade leads on their own websites,
making it difficult for U.S. exporters to search for all relevant trade opportunities. In addition,
the TPCC database does not take advantage of available technology to allow for automatic
notification of export opportunities that match a company’s industry profile, which could be a
useful tool for busy exporters. (See page 41.)

Commerce can better communicate opportunities at the multilateral development banks.
CS’ Advocacy Center, which oversees Commerce’s operations at the five multilateral
development banks, the CS officers assigned to the banks, and some USEAC staff have taken
positive steps to increase U.S. exporters’ awareness of opportunities at the banks. While most
CS officers and many state trade agencies and other federal agencies were aware that CS
maintains personnel at each bank, we found that many USEACs, state trade agencies, and
exporters did not fully understand the trade finance and procurement opportunities at the banks.
The Advocacy Center should provide more information to key stakeholders on trade finance and
direct procurement opportunities at the banks and coordinate future exporter outreach efforts
with the USEACs. (See page 47.)

On page 47, we list a summary of our recommendations to address the concerns outlined in this
report.

Agency Responses to OIG Draft Report and OIG Comments

The Deputy Under Secretary for International Trade provided a thorough response to our draft
report that indicated ITA’s agreement with most of our recommendations. We appreciate ITA’s
careful consideration of our report and the actions taken and planned to address our
recommendations. In its response, ITA outlined several efforts to further enhance CS’
collaboration with state trade offices and other Commerce bureaus, including ESA, MBDA, and
NIST. ITA also expressed its commitment to working effectively with the DECs, although it did
not directly address all of our recommendations to enhance its working relationship with the
councils. In response to our recommendation on better coordinating client outreach efforts, ITA




                                               iv
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

emphasized that its internal coordination is improving but acknowledged that coordination could
be further enhanced.

In response to our several recommendations to improve CS’ coordination with the State
Department on the partnership post program, ITA outlined many ongoing, positive initiatives to
improve coordination on the program and provided a copy of its interim guidance for CS posts
and its proposed MOU with the State Department. ITA concurred with our recommendations to
improve its Internet resources and consolidate other agencies’ trade leads into export.gov and
outlined plans to address these recommendations. ITA’s response provided additional detail on
its multilateral development bank operations, but did not directly address all our
recommendations to enhance those operations. We ask that ITA provide additional detail on its
implementation of these recommendations as part of its action plan, which we request be
submitted within 60 days of this final report to address the status of all the report’s
recommendations.

ITA’s response also discussed the responsibilities of the ITA web governance board in response
to our recommendation to streamline and clarify the decision-making process for organizing ITA
Internet content. The response’s characterization of the responsibilities and authorities of the
ITA web governance board, however, is inconsistent with what we heard from web governance
board members during our review. ITA should ensure that all board members fully understand
their mandate. We ask that ITA provide additional clarification of the board’s responsibilities as
part of its action plan.

The Under Secretary for Economic Affairs provided a response agreeing to our recommendation
that STAT-USA and ITA evaluate ways of improving their coordination on identifying trade
leads. The response indicated that ESA has held informal conversations with CS staff over the
past year on consolidating and improving sources of information on trade leads. The Under
Secretary committed ESA to continuing these discussions with the object of eliminating
unnecessary duplication between the agencies’ trade lead efforts. We appreciate the Under
Secretary’s response and the actions that ESA has taken and plans to take to better integrate the
Department’s trade lead efforts.

The Director of the National Institute of Standards and Technology also provided a response
addressing our recommendation for enhanced cooperation between NIST’s Manufacturing
Extension Partnership and CS. NIST concurred with our recommendation and outlined plans to
work more closely with CS in the future to better serve the needs of CS and MEP clients.

The Minority Business Development Agency provided a response concurring with our
recommendations on enhanced MBDA-CS coordination. We discuss the ITA, ESA, NIST, and
MBDA responses to our findings and recommendations in detail at the end of each chapter of the
report. We have also included copies of the responses to our draft report in their entirety as
appendices to this report.




                                            v
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

                                      BACKGROUND

The International Trade Administration (ITA) leads the federal government’s efforts to
encourage, assist, and promote U.S. nonagricultural exports and help ensure that U.S. companies
have fair access to foreign markets. Within ITA, the U.S. and Foreign Commercial Service (CS)
has trade specialists located in 107 U.S. cities and over 80 countries worldwide tasked with
assisting U.S. exporters and representing U.S. commercial interests abroad. ITA’s Market
Access and Compliance office (MAC) assists U.S. companies in obtaining access to foreign
markets for their products and monitors other countries’ compliance with their trade agreements.
Specialists in ITA’s Manufacturing and Services (MAS) organization work with industry
associations and firms to identify trade opportunities and obstacles by product and service,
industry sector, and market.

Other bureaus within Commerce complement ITA’s trade promotion efforts. The Manufacturing
Extension Partnership (MEP), part of the National Institute of Standards and Technology (NIST),
provides technical assistance to manufacturing companies, some of which may benefit from
greater involvement in international markets. The Minority Business Development Agency
(MBDA) provides assistance to minority-owned businesses and may provide counseling on
international trade issues when appropriate. The Bureau of Industry and Security (BIS) counsels
businesses on compliance with export control regulations, and the U.S. Patent and Trademark
Office (USPTO) provides some assistance to companies on overseas intellectual property
protection issues. STAT-USA, part of Commerce’s Economics and Statistics Administration
(ESA), compiles international trade data that it provides to subscribers for a fee.

The Trade Promotion Coordinating
                                                 Figure 1: Trade Promotion Coordinating Committee
Committee                                        Member Agencies
While Commerce is the federal government’s
lead trade promotion agency, many other          U.S. Department of Commerce
federal agencies have some responsibility for    Export-Import Bank of the United States
assisting U.S. exporters. In order to            Overseas Private Investment Corporation
                                                 U.S. Trade and Development Agency
coordinate the federal government’s export       U.S. Small Business Administration
promotion efforts and eliminate duplication,     U.S. Department of Agriculture
Congress established the Trade Promotion         U.S. Department of State
Coordinating Committee (TPCC). The Export        U.S. Department of the Treasury
Enhancement Act of 1992 established the          Office of the U.S. Trade Representative
                                                 U.S. Agency for International Development
committee, comprised of 19 federal agencies,     U.S. Environmental Protection Agency
and designated the Secretary of Commerce as      U.S. Department of Defense
its chairman (see Figure 1). The objectives of   U.S. Department of Energy
the TPCC, as outlined in the Act, are to: (1)    U.S. Department of Interior
provide a unifying framework to coordinate       U.S. Department of Labor
                                                 U.S. Department of Transportation
the export promotion and financing activities    Office of Management and Budget
of the United States Government, and (2)         National Security Council/National Economic Council
develop a governmental strategic plan for        Council of Economic Advisers
carrying out federal export promotion and        U.S. Department of Homeland Security
export financing programs.
                                                 Source: The 2006 National Export Strategy
The full committee, chaired by the Secretary,


                                            1
U.S. Department of Commerce                                                 Final Report IPE-18322
Office of Inspector General                                                            March 2007

typically meets once per year, although the principals from the
more active member agencies meet informally during the year
at other venues, such as secretarial trade missions. The TPCC
secretariat, which currently has three full time staff members,
is housed within CS. The TPCC submits an annual National
Export Strategy to the Congress summarizing the trade
promotion efforts of the various member agencies. The
committee also organizes training for member agencies to
educate their staffs on the range of federal trade promotion
activities.

U.S. Export Assistance Centers
The Export Enhancement Act of 1992 also established the U.S.
export assistance centers (USEACs), which Congress intended
to be one-stop shops for U.S. businesses seeking export-related
assistance. There are currently 107 USEACs that operate as
the domestic field network of the Commercial Service. All of
them have CS trade specialists that provide general export assistance. The U.S. Small Business
Administration (SBA) maintains staff at 17 USEACs to assist exporters with trade finance
inquiries. Export-Import Bank of the United States (ExIm Bank) also has trade finance
specialists at several USEACs, including New York, Philadelphia, and San Francisco.

Export Assistance at U.S. Overseas Posts
Commerce’s Commercial Service has the primary responsibility for assisting exporters in foreign
countries through its network of overseas offices in over 80 countries. CS maintains offices in
countries that represent the more significant export markets for U.S. goods and services. In
countries without CS offices, the State Department is responsible for representing U.S.
commercial interests and assisting U.S. exporters. The cooperation between the State
Department and Commerce to provide export assistance in countries where CS does not have an
office represents one of the key federal interagency trade promotion relationships.

Currently, the State Department has 140 embassies and priority consulates in 110 countries that
do not have CS offices but which qualify for State Department funding for commercial
programs. State either has a designated commercial or economic officer or an office that has
previously participated in commercial activities in 94 of these countries (see Table 1). Most of
these posts—generally referred to as partnership posts—will likely continue to be served by the
State Department in the future because of CS resource constraints.




                                            2
U.S. Department of Commerce                                                                       Final Report IPE-18322
Office of Inspector General                                                                                  March 2007


                             Table 1: Partnership Posts and CS regional posts
           CS Post                                                 Partnership Posts
                                      Africa, Near East, and South Asia (ANESA)
                                 Addis Ababa, Ethiopia; Bujumbura, Burundi; Dar Es Salaam, Tanzania; Djibouti, Djibouti;
Nairobi, Kenya                   Kinshasa, Congo; Kampala, Uganda; Port Louis, Mauritius; Kigali, Rwanda
                                 Antananarivo, Madagascar; Lilongwe, Malawi; Maputo, Mozambique; Gaborone,
                                 Botswana; Luanda, Angola; Mbabane, Swaziland; Harare, Zimbabwe; Lusaka, Zambia;
Johannesburg, South Africa       Windhoek, Namibia.
                                 Bamako, Mali; Lome, Togo; Nouakchott, Mauritania; Banjul, the Gambia; N'Djamena,
                                 Chad; Ouagadougou, Burkina Faso; Conakry, Guinea; Niamey, Niger; Praia, Cape Verde;
Dakar, Senegal                   Cotonou, Benin; Monrovia, Liberia; Yaoundé, Cameroon
Amman, Jordan                    Damascus, Syria
Riyadh, Saudi Arabia             Manama, Bahrain; Sana'a, Yemen
Dubai, UAE                       Muscat, Oman
Cairo, Egypt                     Tripoli, Libya; Tunis, Tunisia; Beirut, Lebanon (CS locally-hired staff)
New Delhi, India                 Colombo, Sri Lanka; Dhaka, Bangladesh; Katmandu, Nepal
Casablanca, Morocco              Algiers, Algeria (CS locally-hired staff)
                                 Islamabad, Pakistan (CS locally-hired staff); Kabul, Afghanistan; Abidjan, Cote d’Ivoire;
Unaffiliated                     Asmara, Eritrea; Brazzaville, Dem. Rep. of Congo; Freetown, Sierra Leone; Khartoum,
(No assigned CS regional post)   Sudan; Libreville; Gabon; Maseru, Lesotho
                                                      Europe (EUR)
Ankara, Turkey                   Baku, Azerbaijan
Bucharest, Romania               Chisinau, Moldova
Vienna, Austria                  Ljubljana, Slovenia
Athens, Greece                   Nicosia, Cyprus
Stockholm, Sweden                Reykjavik, Iceland; Riga, Latvia
Zagreb, Croatia                  Sarajevo, Bosnia and Herzegovina
Helsinki, Finland                Tallinn, Estonia
Rome, Italy                      Valletta, Malta
Warsaw, Poland                   Vilnius, Lithuania
BISNIS (Business Information
Service for the Newly            Tbilisi, Georgia; Yerevan, Armenia; Bishkek, Kyrgyzstan; Dushanbe, Tajikistan; Tashkent,
Independent States)*             Uzbekistan
Unaffiliated                     Luxemburg, Luxemburg; Minsk, Belarus; Pristina, Kosovo Region; Ashgabat,
(No assigned CS regional post)   Turkmenistan
Currently Unaffiliated;
Formerly with CEEBIC**           Skopje, Macedonia; Tirana, Albania
                                               Western Hemisphere (WH)
Sao Paulo, Brazil                Asuncion, Paraguay
Mexico City, Mexico              Belize City, Belize
Santo Domingo, Dominican         Bridgetown, Barbados; Georgetown, Cayman Islands; Kingston, Jamaica; Nassau,
Republic                         Bahamas; Paramaribo, Suriname; Port au Prince, Haiti; Port of Spain, Trinidad and Tobago
Santiago, Chile                  La Paz, Bolivia
San Jose, Puerto Rico
(USEAC)                          Managua, Nicaragua
Buenos Aires, Argentina          Montevideo, Uruguay (CS locally-hired staff)
Guatemala City, Guatemala        Tegucigalpa, Honduras
                                                East Asia/Pacific (EAP)
Singapore, Singapore             Bandar Seri Begawan, Brunei
Sydney, Australia                Suva, Fiji
Beijing, China                   Ulaanbaatar, Mongolia



                                                       3
U.S. Department of Commerce                                                                      Final Report IPE-18322
Office of Inspector General                                                                                 March 2007

Bangkok, Thailand                   Phnom Penh, Cambodia; Vientiane, Laos
Unaffiliated                        Port Moresby, Papua New Guinea; Majuro, Marshall Islands; Koror, Palau; Kolonia,
(No assigned CS regional post)      Federated States of Micronesia; Apia, Samoa
* These posts have locally-hired Commerce staff at the post who work for Commerce’s BISNIS program. These
staffers provide some support for U.S. exporters, but do not provide the same services as CS’ locally-hired
staffers and do not report to the SCOs in neighboring posts.
** CEEBIC—CS’ Central and Eastern Europe Business Information Center—has been dissolved.
Sources: State Department and CS

The Trade Promotion Role of Non-Federal Organizations
Many other non-federal entities also have a role in supporting U.S. exporters. Forty-nine of the
50 states maintain trade offices that provide varying levels of support for exporting companies;
39 of these are members of an umbrella organization of state trade offices, the State International
Development Organizations (SIDO). Some of these states maintain substantial networks of
overseas offices that provide some of the same services available at CS’ overseas offices, while
others rely extensively on CS’ overseas office network (see Table 2).

                     Table 2: Selected State Trade Offices with Overseas Offices
             State                 Number of             Overseas                       Scope of coverage
                                 Overseas Offices      Representatives
  Pennsylvania                                 18                   28      49 countries including the European
                                                                               Union (EU)
  Florida                                        13                   14    13 countries plus selected EU countries
  Georgia                                        11                   17    13 countries plus selected EU countries
  Maryland                                       11                 N/A      9 countries plus selected EU countries
  Illinois                                        9                 N/A     140-plus countries (from website)
  Washington (state)                              8                    8    7 countries
  North Carolina                                  6                   13    6 countries plus selected EU countries
  Wisconsin                                       5                   10    5 countries plus selected EU countries
  Michigan                                        1                    3    2 countries plus selected EU countries
  Delaware                                        0                    3    4 countries
  Nevada                                       N/A                    10    12 countries
  Source: state trade offices

Multilateral lending institutions are also of interest to U.S. exporters. The U.S. government has
contributed capital to five multilateral development banks—the World Bank, the European Bank
for Reconstruction and Development, the African Development Bank, the Asian Development
Bank, and the Inter-American Development Bank. These banks, located in Washington, D.C.
and three foreign cities, are international institutions established to promote economic
development and alleviate poverty (see Table 3). While the banks have no interest in promoting
U.S. exports, the development projects funded by the banks can represent substantial export
opportunities for U.S. companies. In order to assist U.S. firms pursing such opportunities, the
Omnibus Trade and Competitiveness Act of 1988 required Commerce to maintain commercial
liaisons at these banks. The Advocacy Center, housed within CS, has overseen and managed
Commerce’s representation to the five multilateral development banks since 2004. The
commercial liaison officer positions are mostly staffed by CS commercial officers assigned to
the banks on a rotating basis.


                                                         4
U.S. Department of Commerce                                                 Final Report IPE-18322
Office of Inspector General                                                            March 2007


Many other organizations also support                             Table 3:
U.S. exporters and thus could assist          Locations of the Multilateral Development Banks
Commerce in its export-promotion                   Bank Group                       Location
mission. Many states maintain                Asian Development Bank           Manila, Philippines
networks of Small Business                   African Development Bank           Tunis, Tunisia
Developments Centers, in partnership
                                         European Bank for Reconstruction
with the U.S. Small Business                     and Development
                                                                               London, England
Administration, which can provide        Inter-American Development Bank       Washington, DC
export assistance. Chambers of
Commerce and various other private                 World Bank                  Washington, DC
trade associations also provide export   Source: Advocacy Center
assistance to companies.




                                         5
U.S. Department of Commerce                                                 Final Report IPE-18322
Office of Inspector General                                                            March 2007

                    OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General conducted this review in accordance with the Quality Standards
for Inspections issued by the President's Council on Integrity and Efficiency, dated January 2005,
and under the authority of the Inspector General Act of 1978, as amended, and Departmental
Organization Order 10-13, dated August 31, 2006.

The objectives of our review were to:

   •   Determine whether Commerce, TPCC, or other federal entities are maintaining a
       comprehensive and useful Internet portal for export-ready companies, effectively
       leveraging the export.gov portal, and avoiding duplication of IT resources;
   •   Determine the adequacy of and mechanisms for communicating trade leads and other
       relevant trade information from Commerce and non-Commerce sources to prospective
       exporters;
   •   Assess coordination and information sharing at the USEACs between Commerce, SBA,
       and ExIm Bank;
   •   Determine whether Commerce’s communications network adequately supports the State
       Department’s commercial functions at partnership posts and whether activities at those
       posts are adequately coordinated with Commerce’s export promotion activities;
   •   Review the adequacy of trade promotion coordination and information sharing between
       Commerce and state and local government trade organizations and private trade
       associations to facilitate the matching of export opportunities with export-ready small
       businesses; and
   •   Using available information, compare the processes used for communicating export
       opportunities in select countries with those used by the U.S. government to determine
       whether there are lessons to be learned from Canada, Japan, France, or Germany.

To accomplish our objectives, we performed the following tasks:

   •   Reviewed relevant ITA, U.S. government, and foreign government Internet resources;
   •   Reviewed relevant documents, including the National Export Strategy and past reports
       issued by OIG and the Government Accountability Office;
   •   Met with all members of ITA’s web governance board;
   •   Met with officials in various Commerce bureaus, including ITA’s three primary trade
       policy or promotion units—the Commercial Service, Market Access and Compliance,
       and Manufacturing and Services; the Economics and Statistics Administration’s STAT-
       USA; the Minority Business Development Agency; and the National Institute of
       Standards and Technology’s Manufacturing Extension Partnership program;
   •   Visited ten U.S. Export Assistance Centers, including some that were collocated with
       SBA and ExIm Bank, and one MBDA regional office, and spoke with several additional
       USEAC network directors by telephone;
   •   Met with officials in the State Department’s Bureau of Economic and Business Affairs
       and worked with that bureau and State OIG on a survey sent to all State partnership posts;
   •   Met with several other TPCC agencies, including the U.S. Department of Agriculture’s
       Foreign Agricultural Service (FAS), the Treasury Department, the Overseas Private


                                            6
U.S. Department of Commerce                                                 Final Report IPE-18322
Office of Inspector General                                                            March 2007

       Investment Corporation (OPIC), the U.S. Trade and Development Agency (TDA), SBA,
       the U.S. Agency for International Development (USAID), and ExIm Bank;
   •   Conducted phone interviews with the senior commercial officers at six CS parent posts;
   •   Met with multiple trade partners, including the National Association of Manufacturers,
       the U.S. Chamber of Commerce, the Small Business Exporters Association, and others;
   •   Conducted phone interviews with representatives from 16 state trade agencies;
   •   Met with the head of the Advocacy Center and Commerce officers at all five multilateral
       development banks and spoke with three U.S. executive directors at the multilateral
       development banks;
   •   Attended the National District Export Council conference in New Orleans, Louisiana
       from October 30 – November 1, 2006;
   •   Interviewed officials in Canada’s international trade ministry (by telephone).

This review was prompted by a request made in August 2006 to seven inspectors general from
two members of the Small Business Committee of the U.S. House of Representatives, including
the then-Chairman, as well as another representative. The members asked each Inspector
General to review specific aspects of federal trade promotion efforts. Because the TPCC
secretariat is housed in the Department of Commerce, Commerce OIG has helped coordinate the
reviews of the other OIGs, as they relate to the National Export Strategy and the TPCC’s role in
facilitating federal trade coordination. Commerce OIG hosted two interagency meetings of the
OIG review teams on October 5, 2006, and December 8, 2006, and scheduled and attended
meetings with the Treasury and State Departments, USAID, and FAS. Commerce OIG has also
scheduled and attended meetings within the Commerce Department that were requested by other
OIGs.

We conducted our fieldwork from September through December 2006 at (1) Commerce and ITA
headquarters in Washington, D.C.; (2) NIST headquarters in Gaithersburg, Maryland; (3)
USEACs located in Arlington and Richmond, Virginia; Baltimore, Maryland; Philadelphia,
Pennsylvania; Chicago, Libertyville, and Rockford, Illinois; Milwaukee, Wisconsin; and San
Francisco and San Jose, California; (4) the National District Export Council conference in New
Orleans; (5) various trade associations in Washington, D.C., and Burke, Virginia; and (6) the
regional MBDA office in Chicago.

We discussed our findings with the Deputy Under Secretary for International Trade, the
Assistant Secretary for Trade Promotion and Director General of the U.S. & Foreign
Commercial Service, and other Commerce officials both during and at the conclusion of our
review.




                                            7
U.S. Department of Commerce                                                             Final Report IPE-18322
Office of Inspector General                                                                        March 2007

                            OBSERVATIONS AND CONCLUSIONS

I.    Opportunities Exist for Greater Collaboration with Trade Partners

ITA and CS maintain strong links to many different organizations that promote U.S. trade and
offer assistance to U.S. exporters. The Department and ITA are responsible for spearheading
federal interagency coordination on trade promotion through the TPCC. CS also works with
other parts of Commerce, state and local trade offices, and various other public and private
entities. Many of these relationships are productive, but Commerce could enhance its export
promotion efforts by further improving collaboration with and expanding its outreach to others in
both the public and private sectors.

A. The Trade Promotion Coordinating Committee should further promote interagency
   coordination

The TPCC is required by law to provide a “unifying framework” to coordinate the export
promotion and export financing activities of the federal government and develop a strategic plan
for those activities. In order to accomplish these objectives, the Export Enhancement Act of
1992 explicitly assigns specific duties to the TPCC, including the duty to “coordinate official
trade promotion efforts to ensure better delivery of services to United States businesses.”
Currently, the TPCC focuses its limited resources on preparing an annual National Export
Strategy document, providing training to the staff of TPCC member agencies, and conducting ad
hoc interagency meetings to address specific issues, such as Secretarial trade missions, meetings
to discuss proposed free trade agreements, and other Secretarial initiatives. Several years ago,
the TPCC held meetings to coordinate Internet issues, but these meetings have not continued. In
addition to these TPCC-led efforts, many of the TPCC member agencies coordinate among
themselves through informal channels.

While some of the TPCC’s efforts to promote interagency cooperation achieve positive results,
in particular the TPCC training program, we found the TPCC should do more to promote regular
interagency coordination on specific aspects of trade promotion. Informal channels, ad hoc
meetings, and the writing of an annual report are useful activities, but are not sufficient to
adequately coordinate all of the ongoing export promotion and export financing activities of the
19 TPCC agencies. Several agencies told us that the TPCC’s ad hoc meetings are valuable, but
such meetings are not very suitable for coordinating and integrating regular trade promotion
activities. In addition, the existing process of writing and reviewing the National Export
Strategy, in which participating agencies provide narratives describing their trade promotion
activities to the TPCC secretariat and review drafts of the plan as prepared by Commerce, is not
an effective mechanism for coordinating and integrating regular activities. 1

Improving interagency coordination requires structured working groups that meet regularly and
have a clear mandate to collaborate on specific aspects of trade promotion. Such groups would
implement a strategic planning process to jointly identify program priorities, goals and objectives
and collaborate on efforts to achieve these objectives. Specific issues that could benefit from the

1
 The OIGs from several other TPCC agencies have identified some concerns with the current process of drafting the
National Export Strategy. We plan to highlight those concerns in a separate memorandum to the Department.


                                                   8
U.S. Department of Commerce                                                            Final Report IPE-18322
Office of Inspector General                                                                       March 2007

greater interagency coordination that could be facilitated by TPCC working groups include
identifying and communicating trade leads, delivering information and services via the Internet,
providing trade finance assistance to U.S. companies, and assisting other countries in building
trade capacity in a manner that complements U.S. trade promotion efforts.

Trade Leads
We found that many federal agencies have information that might identify export opportunities
for U.S. companies (trade leads) which is not being communicated to U.S. companies in any
coordinated way. The TPCC has not created a one-stop source of trade leads despite its mandate
to “provide a central source of information for the business community on federal export
promotion and export financing programs.” 2 (See chapter IV of this report for a discussion of
trade leads.)

Internet Resources
Federal agencies’ efforts to provide information and services for exporters via the Internet are
uncoordinated, and the TPCC has not addressed the problem. The TPCC established the
export.gov Internet portal for export-related information in 2000, but the website primarily
presents information from CS with links to other federal websites. One senior CS IT official
noted there is “very little contact with other agencies.”

There is little or no commitment from any TPCC agency outside of Commerce to contribute
content or further develop export.gov. One senior official we spoke to from a TPCC agency was
not even aware of several of export.gov’s functions and had plans to develop a similar site at his
agency. As our office previously recommended in 2001, 3 ITA should take the lead in
formalizing a TPCC Internet working group and obtaining a commitment of resources from all
relevant agencies to reduce duplication and develop Internet resources that focus on client needs,
not agency functions. Examples of such initiatives would be improved web content on trade
leads and trade finance resources on the TPCC Internet portal, export.gov. (See chapter III of
this report for a discussion of ITA’s Internet resources for exporters.)

Trade Finance
The TPCC currently has no working group on trade finance issues and should establish one to
improve coordination of services between the agencies that provide loans, guarantees, insurance,
and other financial services for exporters (trade finance agencies). We found that Commerce,
SBA, and ExIm Bank staff generally work well together at the USEACs, with SBA and ExIm
staff providing trade finance assistance to companies referred by CS trade specialists. However,
we found little coordination between Commerce’s operations at the multilateral development
banks and the primary TPCC trade finance agencies. Commerce maintains officers and staff at
the five multilateral development banks in which the U.S. has a significant equity position and
most of these banks offer some trade finance services that might be useful for U.S. companies.
Some of these services, such as investment guarantees or direct loans through the World Bank
group, could complement services available through the U.S. trade finance agencies.

2
 Sec. 2312 (b) (2) of the Export Enhancement Act of 1992, 15 U.S.C. § 4727 (b)(2).
3
 U.S. Department of Commerce Office of Inspector General, March 2001. Although Progress Has Been Made,
More Needs to Be Done to Deliver On-line Export Information and Services, IPE-13213. Creation of a formalized
committee was recommended in 2001.


                                                  9
U.S. Department of Commerce                                                             Final Report IPE-18322
Office of Inspector General                                                                        March 2007


We spoke with some senior officials at federal trade            Figure 2: Trade Capacity Building
finance agencies who were unaware of the specific
                                                                Trade capacity building activities include
finance products available to U.S. companies                    efforts to assist developing countries in
through the multilateral development banks. These               participating in trade negotiations,
officials told us that their agencies are not currently         implementing trade agreements, responding
referring their clients to the banks. OPIC does refer           to new market opportunities resulting from
its clients to the multilateral development banks, but          trade liberalization, and transitioning to a
                                                                freer trade environment. USAID notes that
does not always inform those clients that CS                    such efforts support development because
maintains staff at the banks that could assist them.            “the process of exchanging products and
A TPCC working group on trade finance could help                services through market operations, or trade,
encourage cooperation among federal trade finance               generates more wealth than would be
agencies and focus them on how the government as                otherwise created if companies were less
                                                                specialized.”
a whole can better serve the trade finance needs of
U.S. exporters.                                                 Source: USAID website

Trade Capacity Building
The TPCC also has no forum to help coordinate the government’s various trade capacity building
programs (see Figure 2). These projects, many of which focus on infrastructure and systems
development in a foreign country, are primarily intended to support overseas economic
development efforts. However, trade capacity building efforts can also support U.S. exports as
well by targeting specific issues that inhibit foreign countries from importing (e.g., improving
customs procedures or port facilities). Additionally, individual trade capacity-building projects
can lead to export opportunities for U.S. firms.

USAID, the Trade and Development Agency, and the Treasury Department are TPCC members
and each is involved in promoting an increase in the trading capacity of foreign countries.
USAID programs regularly support trade capacity building initiatives, and the Treasury
Department is regularly called upon to make decisions regarding trade capacity building projects
at the multilateral development banks. The Millennium Challenge Corporation, while not
currently an official member of the TPCC, also sponsors trade capacity building projects and
should be involved in any interagency efforts this area. 4 Some TPCC members that are not
directly involved in trade capacity projects, including Commerce and the State Department,
could nonetheless contribute useful information on trade capacity priorities in certain countries.

Currently, no adequate forum exists to promote dialogue between the agencies with a role in
trade capacity building programs and those—including Commerce—that have knowledge of
specific barriers to U.S. exports in foreign countries. A TPCC-sponsored working group could
create such a forum. While such a group would logically be chaired by an agency such as
USAID or Treasury that has a major trade capacity building mission, not Commerce, the TPCC’s
legislative mandate grants the Secretary of Commerce the authority to coordinate the trade
promotion activities of the TPCC agencies. To the extent that trade capacity building programs

4
  The Millennium Challenge Corporation is a U.S. government-owned corporation established in January 2004 with
the stated mission to reduce poverty through economic growth while targeting aid to reward countries with good
public policies. Since 2004, the Millennium Challenge Corporation has received approximately $4 billion in U.S.
government appropriations.


                                                  10
U.S. Department of Commerce                                                 Final Report IPE-18322
Office of Inspector General                                                            March 2007

can support U.S. trade promotion efforts, the Secretary and ITA have a mandate to encourage
greater coordination of the trade promotion aspects of those programs.

B. ITA should enhance its coordination with other Commerce Bureaus

While most of Commerce’s trade promotion efforts are undertaken by ITA, other Commerce
bureaus have some involvement in trade promotion. Some Commerce bureaus already
collaborate closely with ITA’s Commercial Service. For example, BIS conducts some of its
seminars on compliance with export control rules and regulations in coordination with the
USEACs. CS also coordinates with NIST to promote compatible standards in overseas markets,
and with USPTO to promote intellectual property rights overseas. However, we found there are
opportunities for other Commerce bureaus to enhance their coordination with CS, thereby
creating more of a team approach for trade promotion among the various Commerce bureaus.

National Institute of Standards and Technology
While NIST works closely with CS on overseas standards issues, there are opportunities for
NIST’s Manufacturing Extension Partnership (MEP) to better coordinate its efforts with CS.
MEP is a nationwide network of not-for-profit centers, funded jointly by NIST and its partners in
each state. The MEP centers assist manufacturing firms and facilitate technology transfer from
federal research programs to private companies. MEP maintains offices in all 50 states and
Puerto Rico in partnership with state governments. While many MEP clients may not be export
ready, MEP officials told us that international expansion may be an appropriate strategy for some
of their clients. Some of CS’ export assistance centers already work with local MEP offices and
receive periodic referrals from MEP, but there may be additional opportunities for further
USEAC-MEP cooperation. MEP’s manufacturing and business specialists can be a resource for
CS’ manufacturing clients, and MEP offices may be helpful in identifying export-ready
companies that could benefit from USEAC-sponsored events and information sessions. In
addition, MEP headquarters personnel in Gaithersburg, Maryland, are not currently invited to
TPCC meetings, even though they told us that they would like to be a part of such discussions
when they are relevant to MEP’s mission. Furthermore, personnel in MEP’s field offices are
often not invited to participate in the local district export council.

Minority Business Development Agency
MBDA offices and affiliated organizations around the country provide a variety of services to
assist minority-owned businesses. While many of MBDA’s clients are small and may not be
immediate candidates for exporting, MBDA officials told us that some of their clients could
benefit from greater participation in international markets. At least two MBDA offices have
staff that focus primarily on international trade issues and regularly refer clients to local
USEACs. Some USEACs, such as the one in Atlanta, work closely with the local MBDA office,
but cooperation on recruiting for trade missions, trade events, and information sessions is
uneven. Additionally, MBDA offices are not always invited to participate in the district export
councils.

Improved communication between MBDA and CS would be helpful. For example, the CS
officer at the African Development Bank noted that she had difficulty in finding U.S. companies
interested in the African market. The officer was not aware that MBDA in Atlanta has worked



                                           11
U.S. Department of Commerce                                                       Final Report IPE-18322
Office of Inspector General                                                                  March 2007

extensively with a group of companies interested in business opportunities in Africa. The
MBDA office in Chicago was unaware of financing opportunities available through the
multilateral development banks, even though one of its clients could likely have benefited from
investment guarantees through the African Development Bank. CS and MBDA should
coordinate to ensure clients are cross-referred when appropriate. In addition, relevant MBDA
staff should be invited to participate in TPCC events and the district export councils, as
appropriate.

Economics and Statistics Administration
Within Commerce’s Economics and Statistics Administration (ESA), the fee-based STAT-USA
aggregates business data from various sources for its paid customers, most of which are libraries
and other institutions. As part of its data aggregation service, STAT-USA compiles trade leads
from various agencies and sources such as the United Nations, some of which are not included in
the export.gov portal. To some extent, the STAT-USA trade lead service duplicates the
functionality of the export.gov trade lead service. However, because of its limited subscriber
base and fee-for-service structure, the service is not particularly useful for small businesses. Few
(if any) small businesses subscribe to the STAT-USA service, and most of the CS trade
specialists with whom we spoke were not even aware of the STAT-USA trade lead service.
STAT-USA has considerable expertise in aggregating trade lead information and should be
involved in any Commerce or TPCC discussions on identifying trade leads relevant to U.S.
exporters. ESA and ITA should at least coordinate their trade lead efforts and should examine
whether it is possible to eliminate duplication without introducing a fee for the export.gov trade
lead service or undermining STAT-USA’s revenue streams.

C. Commerce works effectively with many state trade agencies, but a sense of competition
   hinders collaboration in some cases

Most state trade agencies focus on increasing            Figure 3: ITA Teams
exports from companies located in their state and
                                                         ITA teams are groups of trade professionals,
promoting foreign investment in their state. State       located in the U.S. and around the world, who
trade agencies offer their own export-promotion          work together to provide targeted trade
services, which often duplicate services offered by      promotion and facilitation service to U.S.
CS. In many cases, USEACs maintain very                  companies in specific industries or regional
effective relationships with state trade partners,       overseas markets. ITA teams began in the CS
                                                         domestic field offices in 1995 as a way to
especially those that are collocated in the same         provide more client-driven service to
facility. However, according to several state trade      companies, to build critical mass for trade
representatives and USEAC trade specialists, a           event recruitment, and to increase the
sense of competition hinders effective cooperation       knowledge and skills of team members. Since
in some cases. Given the overlapping missions of         that time, the number of teams has grown in
                                                         number, membership, and now includes
CS and many state trade agencies, exporters would        members from CS field staff, Export Promotion
benefit from more strategic CS coordination with         Services, the CS Office of Marketing, Trade
state trade agencies.                                    Development, Market Access and Compliance,
                                                         and some public and private sector partners.
Several USEACs have developed particularly               Currently, there are 19 teams in industry-
effective partnerships with their state trade            specific and geographic categories.
agencies. For several years, the Atlanta USEAC           Source: ITA’s Ourplace intranet site



                                            12
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

has worked to cultivate a close relationship with the Georgia trade office, which culminated in
joint strategic planning exercises with the Georgia Department of Economic Development, SBA,
and the Small Business Development Center at the University of Georgia. A primary reason for
this close cooperation is that CS and SBA are collocated and the state’s trade office is in the
same building. Michigan’s state trade office director was also positive about the relationship
between his office and CS. He fostered cooperation between his office and the Detroit USEAC
because it served as a one-stop shop for federal export assistance, with extensive contacts with
overseas posts and staff knowledgeable of federal finance programs. The Baltimore USEAC has
also worked closely with Maryland’s Office of International Operations and has jointly
developed a plan to help trade promotion organizations in the state avoid duplication. As a
result, the Baltimore USEAC scaled back some efforts and increased others to better complement
the services provided by the state trade office and the World Trade Center.

Other USEACs and state trade agencies have jointly sponsored how-to-export seminars, export
financing workshops, and seminars on doing business in a particular country. In some cases they
have also done joint counseling and outreach. Additionally, USEACs have reached out to state
trade specialists to participate on ITA’s agribusiness and information and communications
industry teams (see Figure 3).

Export success credits should be shared. While there are many examples of cooperative federal
and state partnering, according to several state trade representatives and USEAC trade
specialists, a sense of competition hinders effective cooperation in some cases. One USEAC
trade specialist noted that he has had to work to overcome “overt territorialism” between the
USEAC and the state trade agency. According to a state trade agency director, "There is very
little … that works" in his office’s relationship with the local USEAC. Competition between
USEACs and state trade agencies often stems from the question of which agency should get
credit for an export success, the performance measure often used for a completed export sale or
transaction in the state. States do not always share their export successes or other nonproprietary
client information with USEACs or CS overseas posts, and vice versa. In order to minimize the
state agencies’ perception of competition with CS, CS should share export success credits with
the state trade agencies when the state and the USEAC jointly work with a client who is
successful in exporting as a result of that assistance.

State trade agencies and CS often provide similar export services. The similarity between
services provided by state trade agencies and CS can create a confusing array of export
assistance programs for potential exporters who visit both the USEAC and the state trade office.
For example, Pennsylvania has a $21 million dollar trade budget for FY07 and provides services
similar to Commerce’s, such as Gold Key services and International Business Profiles, to
businesses for free. This state also has an active grant program which pays most costs for
companies to participate in trade missions. Additionally, several states have a much larger
domestic trade promotion staff in their states than CS does. Trade directors in these states told us
that their customer service and follow-up were better than that of CS since their state trade
specialists spend more one-on-one time with exporters. Moreover, a growing number of state
trade agencies are increasing their overseas presence, often in countries where CS has offices.
We also found that when a state has its own representatives at an overseas post, they do not
always coordinate trade missions and their versions of Gold Key services with CS.



                                            13
U.S. Department of Commerce                                                            Final Report IPE-18322
Office of Inspector General                                                                       March 2007


Given the overlapping missions of CS and many state trade offices, exporters would benefit from
more strategic coordination with state trade agencies. Additionally, stronger state-federal
collaboration would help to diffuse some of the feelings of competition between CS and the state
trade agencies. One way to accomplish this is for CS to pursue collocation with state trade
agencies, when practical, and include state trade officials on ITA industry teams, when
appropriate. In China, for example, three states are seeking to open offices within CS’ Shanghai
Commercial Center, which already houses the trade offices for three U.S states and one locality. 5
Moreover, including a slot or two for active state trade specialists in the TPCC training sessions
could further strengthen the partnership between CS and the state trade agencies and enhance the
state officials’ knowledge of federal trade programs. A stronger focus on federal-state
partnerships by CS could benefit exporters by leveraging the strengths of CS and the states while
minimizing duplication of services.

D. The potential exists to better leverage District Export Council resources

In 1974, the Secretary of Commerce established
                                                           Figure 4: District Export Councils (DECs)
41 local district export councils (DECs) to
facilitate the sharing of information among                District export councils are organizations of local
successful exporting companies and support the             business leaders appointed by the Secretary of
exporting efforts of other firms (see Figure 4).           Commerce to assist companies in exporting. Begun in
                                                           1974, there are currently 58 councils with
Some trade professionals, including some
                                                           approximately 1,600 members. Members voluntarily
district council members, USEAC staff, and                 participate in numerous trade promotion activities.
industry representatives, questioned the                   The councils mentor businesses and advocate for
continued relevance of the DECs and noted that             small and medium-sized U.S. exporters. As a
many of the councils are not very active. One              volunteer group, DECs do not receive government
                                                           appropriations or compensation.
DEC member described the organization as a
“chowder and marching society” that did not                District export councils often work closely with the
play an active role in supporting trade                    USEACs and co-sponsor export seminars and other
promotion efforts. However, several USEAC                  trade events with the USEACs. Council members are
trade specialists, trade association                       nominated by local CS officials, and a USEAC
                                                           director serves as the executive secretary of each
representatives, and council members told us
                                                           council. The USEAC director is responsible for
that DEC members are experts in industry or                organizing many council activities and tries to ensure
regional trade issues and could further support            that the DEC meets at least twice a year and prepares
CS’ trade promotion activities.                            a strategic plan. A DEC National Steering Committee
                                                           facilitates communication between all the regional
                                                           DECs around the U.S. and with Commerce. This
Some council members told us they believe CS
                                                           committee also plans the yearly national DEC
should pay more attention to the councils and              conference.
help them develop a better organizational
structure. DEC members who attended the             Source: www.us-dec.com and CS Operations Manual
national DEC convention in New Orleans,             Section 7.1
Louisiana, from October 30 to November 1,
2006, reported on some current efforts to reenergize their groups. For example, many DECs are
in the process of reviewing their volunteer member lists, retiring or removing inactive members,

5
  The Shanghai Commercial Center may close when CS moves its offices into the planned new consulate, at which
time states will no longer be able to collocate their offices with CS.


                                                 14
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

and nominating new members. Some are also establishing working committees comprised of
members with expertise in specific industries or world markets.

These efforts present an opportunity for CS to reexamine the role of the DECs in supporting CS’
trade promotion efforts and take better advantage of the councils. During our review, CS’
deputy assistant secretary for domestic operations told us that CS was beginning to include
district export council members in CS training sessions and planned to integrate representatives
from the DECs into existing CS working groups. In a few cases, CS has already invited council
members to participate with ITA’s global industry and regional market teams. For example,
several members from Arizona’s DEC have been actively collaborating with ITA’s information
and communication team and supporting CS’ International Buyer Program at trade shows. The
ITA teams director supports this practice and said that industry team leaders are well positioned
to invite DEC members to participate on the teams when appropriate.

Despite these positive steps, at the time of our review CS did not have a strategic plan defining
the role of the DECs in supporting CS’ trade promotion efforts and had not formally updated the
District Export Council Handbook to provide guidance for the DECs on how to best organize
and work more closely with CS. Moreover, several USEAC Directors told us that CS should
provide better guidance to them on how to manage and work more closely with DECs, and
improve the existing DEC guidance in the CS Operations Manual. CS should develop a strategic
plan that clearly articulates how the DECs can support trade promotion efforts generally and
how, specifically, they can support CS’ mission. CS should also finalize and distribute the
updated District Export Council Handbook.                    Figure 5: President's Export Council

CS should also develop more systematic ways for the        The President's Export Council is the principal
district export councils to provide feedback on the        national advisory committee on international
value of government export assistance efforts. CS          trade. Through the Secretary of Commerce, the
currently has few mechanisms for the councils to offer     Council advises the President of government
                                                           policies and programs that affect U.S. trade
comments on the usefulness of CS products and              performance, promotes export expansion, and
services and is missing a good opportunity to better       provides a forum for discussing trade-related
understand the needs of its core constituency—small        problems among the business, industrial,
and medium-sized exporters. A better understanding of      agricultural, labor, and government sectors.
the needs of DEC members and other local businesses
could help CS ensure that its products and services are    The Council was established by Executive
                                                           Order 11753 in 1973, but was originally
relevant and identify opportunities to improve services    composed only of business executives. In
for exporters. Input from the DECs would also be           1979, the Council was reconstituted by
useful for the TPCC as it develops the annual National     Executive Order 12131 to include leaders of
Export Strategy.                                           the labor and agriculture communities,
                                                           Congress, and the Executive Branch.
The DECs also have limited opportunities to provide
                                                           The Council reports to the President through
advice to policymakers on export-related issues. DECs      the Secretary of Commerce. The Under
are not advisory committees subject to the Federal         Secretary of Commerce for International Trade
Advisory Committee Act but they could be another           serves as the Council's Executive Director.
avenue for Commerce to obtain input from small and
medium-sized businesses. The President’s Export            Source: President’s Export Council website
Council, which advises the President and the Secretary



                                           15
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

of Commerce on export-related policy issues, is made up of 48 members who are primarily
executives from large corporations, cabinet members, and members of Congress. Of the 28
corporate members of the council, only three represent smaller firms (see Figure 5). To better
gain the perspective of more small and medium-sized businesses, which contribute members to
the local DECs, ITA should work with the Secretary of Commerce to include an appropriate
member of the District Export Council, such as the chairman of the District Export Council
National Steering Committee, on the President’s Export Council.

E.    ITA should better coordinate its own multiple client outreach efforts

ITA contacts clients who have used CS’ products and services, such as International Company
Profiles, Gold and Platinum Key services, trade missions, USEAC counseling, and Internet
resources, to determine their quality, effectiveness, and outcomes. This client outreach is done
using “Voice of the Customer” transactional surveys, phone interviews, focus groups, a customer
care hotline, pop-up surveys on Internet sites, comment cards, and counseling surveys. We
found that some existing and planned client outreach efforts by different offices within ITA are
not well coordinated. Because ITA lacks a mechanism to coordinate its client outreach, some
outreach initiatives may duplicate other efforts, and existing outreach efforts by one part of ITA
may not address issues relevant to other offices. For example, during the course of our review,
we found that ITA’s Office of the Chief Information Officer, CS’ Customer Relationship
Management Office, and CS’ Marketing and Communication Office were all separately planning
to conduct client focus groups. However, none of these planned efforts were coordinated. In
order to prevent duplication of its client outreach efforts and maximize the value of these efforts,
ITA should analyze all its outreach efforts to determine how they can be effectively coordinated
and/or consolidated.

We also found that additional opportunities may exist for client outreach through existing
structures. Currently, as noted above, ITA does not solicit feedback on CS products and services
from the DECs, ITA’s Manufacturing and Services organization, or from the state trade offices.
These organizations help connect ITA to its core constituency, and ITA may be able to leverage
those connections to receive useful feedback on the value of and improvements needed in CS’
products, services, and Internet resources for exporters.

Recommendations:

We recommend that the Under Secretary for International Trade, coordinating as necessary
with the Secretary of Commerce, ensure that the following actions are taken:
   ¾ Establish ongoing interagency working groups of the Trade Promotion Coordinating
       Committee (TPCC) to better facilitate coordination and collaboration among federal
       agencies on specific issues related to trade promotion, including trade leads, Internet
       service delivery, trade finance, and trade capacity-building.
     ¾ Seek to include an appropriate member of the District Export Councils, such as the
       chairman of the District Export Council National Steering Committee, on the President’s
       Export Council.




                                            16
U.S. Department of Commerce                                                Final Report IPE-18322
Office of Inspector General                                                           March 2007

We recommend that the Under Secretary for International Trade and the Assistant Secretary
for Trade Promotion and Director General of the U.S. and Foreign Commercial Service
ensure that the following actions are taken:
    ¾ Improve collaboration between CS and state trade agencies by:
            o Ensuring that state trade officials are credited on CS’ export successes when
                appropriate;
            o Working with individual states to improve their reporting of export successes that
                CS has worked on;
            o Pursuing additional collocation of the USEACs and state trade offices when
                practical;
            o Inviting state trade officials to participate in the TPCC training sessions; and
            o Inviting relevant state trade officials to join some of ITA’s industry teams.
    ¾ Strengthen ITA’s and CS’ collaboration with the district export councils by:
            o Developing a strategic plan defining the councils’ role and how they can
                complement CS’ export promotion activities;
            o Establishing appropriate mechanisms for the district export councils to provide
                input to ITA on the export assistance needs of small and medium-sized
                companies; and
            o Finalizing the District Export Council Handbook, integrating relevant information
                from the strategic plan into the handbook.
    ¾ Better coordinate ITA’s multiple client outreach efforts to help prevent duplication and
        obtain useful feedback from focus groups, the district export councils, ITA’s
        Manufacturing and Services organization, the state trade offices, and others, as
        appropriate.
We recommend that the Assistant Secretary for Trade Promotion and Director General of the
U.S. and Foreign Commercial Service, in consultation with the Director of the National
Institute of Standards and Technology, ensure that the following action is taken:
    ¾ Facilitate coordination between the Commercial Service and NIST on trade promotion
        issues by:
            o Inviting local Manufacturing Extension Partnership (MEP) offices to participate
                in the district export councils, when practical; and
            o Inviting MEP officials to participate in relevant meetings and working groups
                organized by the TPCC.
We recommend that the Assistant Secretary for Trade Promotion and Director General of the
U.S. and Foreign Commercial Service, in consultation with the Director of the Minority
Business Development Agency, ensure that the following action is taken:
    ¾ Facilitate coordination between CS and MBDA on trade promotion issues by:
            o Inviting local MBDA offices to participate in the district export councils, when
                practical; and
            o Inviting appropriate MBDA officials to participate in relevant meetings and
                working groups organized by the TPCC.




                                           17
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

We recommend that the Under Secretary for International Trade and the Under Secretary for
Economic Affairs ensure that the following actions are taken:
   ¾ Evaluate ways of improving coordination between ITA and STAT-USA on the
      identification of trade leads to minimize duplication and improve the quality of the
      Department’s trade lead efforts.




Agency Responses to OIG Draft Report and OIG Comments

In responding to our draft report, the Deputy Under Secretary for International Trade agreed with
our recommendations to enhance collaboration with ITA’s trade partners and outlined actions
that ITA has taken or is planning to take in order to address our recommendations. ITA
committed to engage with its TPCC partner agencies using new or established working groups to
address the specific issues identified in the report in a “coordinated and cooperative manner.”
We appreciate ITA’s commitment to create and sustain processes through the TPCC that would
facilitate interagency collaboration on specific issues of concern to the U.S. exporting
community.

ITA concurred with our recommendations to improve intra-Commerce coordination between CS,
MBDA, ESA, and NIST on trade promotion efforts. ITA indicated that CS has already held
promising discussions with the senior leadership of the NIST MEP program, and has worked
with MEP management to identify areas in which CS and MEP clients can benefit from
coordination between these two offices. In response to our recommendation relating to
enhanced MBDA-CS collaboration, ITA emphasized that CS already has worked with MBDA
on several minority business trade events and missions and will invite MBDA to attend the next
TPCC marketing group meeting. ITA indicated that it would be pleased to “re-engage with
MBDA” to continue to serve the needs of U.S. minority businesses. ITA also concurred with
our recommendation to enhance coordination with STAT-USA on identifying and
communicating trade leads, and reported that CS and STAT-USA will meet in April 2007 to
discuss our recommendation and explore renewed opportunities to work together.

ITA’s response to our recommendations to improve coordination with state trade offices
emphasized that it was committed to improving CS-state partnerships through consistent
communications, sharing of best practices, and working together to effectively deliver trade
promotion services to clients. On our specific recommendations, ITA agreed to pursue more
collocation opportunities with state trade agencies, to include state export promotion staff in
TPCC trainings, and to invite state export promotion staff to join ITA teams. The response
indicated that CS has instructed its staff to share credit for client export successes with state
employees, and that CS staff are evaluated on this collaboration in their performance plans. As
part of its action plan, we request that ITA clarify the process whereby USEACs and the state
trade agencies share export success credits with each other and provide any relevant guidance
that it has provided its trade specialists on this issue.




                                            18
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

ITA largely concurred with our recommendations to enhance the DECs’ involvement in trade
promotion activities, but it did not explicitly address all aspects of our recommendations. ITA
agreed to request that the President’s Export Council invite the DEC national chairman to join
that council. ITA also stated that CS works with the DEC steering committee and individual
DECs to integrate DEC and CS planning and activities. Additionally, ITA noted that that the
DEC Handbook was updated and distributed in 2005, but it agreed to review and update the
handbook, where necessary, and distribute it again. We are pleased that ITA has agreed to
update and redistribute the handbook, since we found that it was not readily available on the
DEC website or on ITA’s intranet, and not all USEAC directors who work with the DECs had a
copy of the handbook.

With regard to developing mechanisms to more actively involve DEC members in export
promotion efforts, ITA listed several points of contact for DECs to use to communicate with ITA
and noted that monthly conference calls are held with the DEC National Steering Committee.
ITA did not address the recommendation to develop a strategic plan to work with the DECs. We
request that ITA’s action plan provide additional detail on this recommendation, as well as more
detail on the mechanisms it has established to promote DEC involvement in export promotion
efforts. We appreciate the Under Secretary’s response and her commitment to continue ITA’s
coordination with the DECs and state trade agencies. Greater coordination between the
Department and these entities should improve the delivery of trade promotion services to clients.

In response to our recommendation to improve the coordination of ITA’s client outreach efforts,
ITA discussed (1) its ongoing efforts to enhance cooperation among the various organizations
within ITA to avoid duplication of services and (2) the role of CS’ Customer Relationship
Management Unit in soliciting feedback from CS clients. ITA emphasized that it has made
progress in enhancing “cross-unit coordination and cooperation,” but acknowledged that such
coordination could improve further. In its action plan, we ask that ITA discuss, in particular, its
plans to effectively coordinate client-outreach efforts and promote cross-unit awareness of its
various client outreach activities.

The Under Secretary for Economic Affairs provided a response to our recommendation that
STAT-USA and ITA evaluate ways of improving their coordination on identifying trade leads.
The Under Secretary reported that ESA has held informal conversations with CS staff over the
past year on consolidating and improving sources of information on trade leads, and committed
ESA to continuing these discussions. The Under Secretary acknowledged the goal of eliminating
needless duplication and creating a one-stop source for government trade leads. She further
noted that ESA’s future coordination with ITA will take into account the goals of not
undermining STAT-USA’s revenue streams while providing a free service to exporters on
export.gov. We appreciate the Under Secretary’s response and her commitment to continue
ESA’s coordination with ITA on the process of identifying and communicating trade leads to
potential exporters. Greater coordination between the two agencies holds the possibility of more
efficient Commerce operations as well as improved trade lead resources for U.S. businesses.

The Director of the National Institute of Standards and Technology also provided a response
with regard to our recommendation for enhanced cooperation between NIST’s Manufacturing
Extension Partnership and CS. NIST concurred with our recommendation and stated that it has



                                            19
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

begun implementing it by working with the district export councils and the TPCC. The NIST
Director noted that NIST “takes its responsibility to support the efforts of the International Trade
Administration very seriously,” and he stated that NIST will continue to work with CS
management to improve coordination between NIST and CS.

The Minority Business Development Agency provided a response concurring with our
recommendations. MBDA stated that it will attempt to coordinate with ITA on trade promotion
issues by seeking to participate on district export councils and in relevant TPCC meetings, and it
would welcome a link from export.gov to MBDA’s Phoenix Opportunities database. We
appreciate MBDA’s commitment to enhance its cooperation with ITA in order to better meet the
export assistance needs of minority business enterprises.




                                             20
U.S. Department of Commerce                                                                  Final Report IPE-18322
Office of Inspector General                                                                             March 2007

II.   Commerce and the State Department Should Strengthen their Cooperative Efforts to
      Support Partnership Posts

In countries where Commerce does not have an office, the State Department is responsible for
promoting U.S. business interests and providing support to U.S. companies. In some of those
countries CS supports State’s operations to help improve the quality of services available to
exporters. In recognition of this, State and CS have informally developed the partnership post
program to help support State’s commercial operations. A State Department partnership post can
best serve U.S. exporters by maintaining an active partnership with its CS regional post and
USEACs, which work directly with U.S. companies interested in pursuing foreign business
opportunities in the partnership post nation. 6

We found that coordination between the partnership posts, CS regional posts, and USEACs is
excellent in some cases. Successful partnerships have resulted from effective personal working
relationships. But overall, State and Commerce have not clearly defined the role of CS in
supporting partnership post operations. This has led to inconsistent Commerce support for
partnership posts and some uncertainty among officers at CS regional posts and the partnership
posts about the role of CS posts in supporting their partnership posts. The lack of a formal State-
Commerce agreement and written CS guidance on the partnership post program has created
some difficulties in effectively managing specific interagency business processes and Commerce
support of State’s commercial activities at these posts. Our review identified some specific
concerns about the partnership post program as well as several opportunities where improved
coordination between State and Commerce could augment the services available to U.S.
companies in the partnership post countries.

A. Active partnership posts are an important part of federal trade promotion efforts

In general, the countries where the State Department operates a partnership post are smaller and
represent more difficult export markets for U.S. firms. CS estimates that these countries
represent only about 5 percent of global Gross Domestic Product. Despite the more limited
market potential in these countries, they may still offer valuable business opportunities for U.S.
firms. Some of the partnership post countries are small but have a high level of per capita
income; others are experiencing rapid economic growth. Partnership post countries may also be
significant markets for firms that produce specialized products or have specific expertise in
regions, such as Africa. Furthermore, in many of these countries, the difficult business
environment could increase the likelihood that companies doing business in the country will
need the support of the U.S. government.

In November 2006, State’s Bureau of Economic and Business Affairs (EB) conducted its regular
biannual survey of all 94 partnership post countries. Both Commerce OIG and State OIG
provided input into the design of the survey in order to ensure that the survey gathered
information relevant to our ongoing reviews of the partnership post program. As of January
2007, 61 posts had responded to the survey. Some of the posts reported strong commercial

6
  This report refers to CS posts with responsibility for partnership posts as CS regional posts. CS, however, defines
regional posts more narrowly. According to CS management, regional posts are only posts that oversee CS staff in
other countries.


                                                     21
U.S. Department of Commerce                                                              Final Report IPE-18322
Office of Inspector General                                                                         March 2007

programs as well as active collaboration with Commerce’s domestic export assistance centers
(USEACs), nearby CS posts, CS’ Advocacy Center, and ITA’s Market Access and Compliance
office. The partnership posts responding to the State survey indicated that they had generated
over 500 trade leads, written or updated 48 country commercial guides, and organized
International Buyer Program delegations during 2006, among other commercial activities (see
Figure 6). The partnership posts also reported active involvement with the USEACs and training
programs sponsored by the CS regional posts.


                                             Figure 6:
                             FY 2006 Partnership Post Reported Activity
           Number and percentage of survey respondents answering “yes” to specific questions
                                                                            Conduct market research
                                                                 98%
                                                                            Operate a commercial website
                                                                            or link to embassy website
                                         62%
                                                                            Collect fees for commercial
                                        59%                                 programs ($64K in 2006)
                               43%                                          Have access to CS’ IT system

                               43%                                          Conduct/Participate in trade
                                                                            or catalog shows
                            41%                                             Organize International Buyer
             13%                                                            Program Trade Delegations
                                                                            Identified more than 20 trade
                                                                            leads in 2006
   0        10        20       30        40        50       60         70
                      Number of Posts (61 total responses)

Source: State Department survey, results as of January 4, 2007

B. The partnership post program remains an informal interagency working relationship

Although many CS posts are providing extensive support to partnership posts, State and
Commerce have not clearly defined CS’ proper role in supporting State’s commercial operations.
Lacking a formal Commerce-State agreement and a mechanism for coordinating partnership post
activities, the program remains an informal interagency working relationship.

Commerce and State have no formal agreement on the partnership post program. Commerce
and State have discussed the partnership post program extensively at the working level, but have
never formally agreed on how the program should be coordinated and what the
responsibilities of their respective agencies should be. In December 2004, the State Department
developed a strategic plan to strengthen support for the commercial function at non-CS posts.
The plan discussed the need for improved State-Commerce coordination and recommended the
formation of a formal, joint State-Commerce consultation mechanism involving regular meetings
between State and Commerce officials to facilitate “early consultation and coordination” on the
partnership post program. The plan also called for a “joint project agreement” on specific issues


                                                   22
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

related to commercial activities at partnership posts. According to State Department personnel,
this plan was discussed with a senior CS officer who was then on detail to the State Department
and with CS’ former Deputy Assistant Secretary for International Operations. However,
Commerce and State never implemented a joint planning mechanism and never developed a
formal agreement on other substantive issues related to commercial activities at partnership
posts.

During this review, CS management told us that CS has been working to develop a memorandum
of understanding (MOU) with the State Department on the partnership post program for more
than 2 years. According to CS officials, the MOU was never finalized because of an extended
review by State Department legal counsel. By the end of January 2007, the MOU still had not
been concluded, and CS management had not issued any other formal guidance to its overseas
posts on the partnership post program. As a result of these delays, CS managers told us that they
are developing guidance for CS regional posts that does not require the formal approval of the
State Department counsel and that they are working with State’s Bureau of Economic and
Business Affairs on a joint cable which the two agencies would send to CS and State posts on the
partnership post program. In December 2006, CS’ Deputy Assistant Secretary for International
Operations assigned a staff member to focus on developing the appropriate agreements with the
State Department, thus giving new impetus to this effort. In January 2007, CS’ Assistant
Secretary and Director General met with State’s Assistant Secretary for Economic and Business
Affairs. At this meeting, both officials reportedly agreed to pursue an “economic agreement” on
partnership post operations.

There is no formal mechanism for coordinating partnership post activities. Commerce and State
have no formal consultative process to coordinate efforts to support U.S. businesses at the
partnership posts and address concerns or issues relating to the partnership post program.
Without such a consultative process, there is no forum for Commerce and State to coordinate and
share information on issues that could benefit from ongoing and regular communication. Such
issues would include, among others, staffing levels at overseas posts, commercial priorities in the
partnership post countries, and the interagency business processes (see discussion in section C of
this chapter.)

Individuals within State’s Bureau of Economic and Business Affairs have established good
working relationships with individuals in CS headquarters, but coordination on the partnership
post program should not be solely dependent on individual relationships, particularly in offices
(such as CS’ Office of International Operations) where the key personnel rotate in and out on a
regular basis. The 2004 State Department strategic plan is a good example of the hazards of
relying on informal working relationships. The plan, which was developed in consultation with
key CS officials, recommended a formal consultation mechanism. However, this
recommendation was never implemented, and the CS officials involved in developing the plan
moved on to overseas assignments. As recommended by the 2004 plan, Commerce should join
with State to establish a formal, ongoing joint consultation mechanism with regular meetings to
coordinate partnership post activities and provide guidance as needed on partnership post
operations.




                                            23
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

C. CS’ role in supporting partnership posts should be clearly defined

Guidance is needed to clearly define CS’ support of partnership posts. CS headquarters needs to
provide clearer guidance to senior commercial officers and CS posts on the level of support that
they are expected to provide to partnership posts, where applicable. Some CS posts are actively
supporting their partnership posts by training partnership post staff and assisting with trade
missions, commercial events, or individual commercial services. While the partnership program
has assisted many State posts, CS management has never clearly defined the responsibilities of
the CS posts to support State’s partnership posts. This ambiguity creates some confusion, and
our discussions with the senior commercial officers at several CS regional posts indicate that
clarification of the roles and responsibilities is long overdue.

Two senior commercial officers told us that they have received “mixed signals” on how much
time they should dedicate to working with the partnership posts. A recent Management
Performance Review (MPR) conducted by CS’ Office of
Strategic Planning of a CS post with substantial partnership        “Post is pleased with the
post responsibilities underscores the need for CS guidance on       guidance and support it
the partnership post program. The MPR report recommended            receives from its [CS
that the post “sharply curtail effort (sic) dedicated to…regional   regional post]. In fact it is
programs.” The MPR report stated that the post should focus         the best example of a
instead on its local market, even though, according to data in      successful regional
the report, the post’s reported export successes in the             relationship with another
partnership post countries were proportionate to the amount of      federal agency.
staff time spent on partnership post support. The five
                                                                    - State Department
partnership posts in question that responded to the recent State    Partnership Post
Department survey expressed satisfaction with the level of
support offered by their CS regional post (see box on right).
Without Commerce and State agreement on the proper role of CS posts in supporting their
partnership posts, and corresponding guidance to CS and State personnel in the field, confusion
and disagreement on the appropriate level of support to the partnership posts will likely persist.

The results from State’s survey of partnership posts reinforce the need for Commerce-State
agreement on the role of CS posts in supporting the partnership posts. The majority (68 percent)
of the State partnership posts are satisfied with the support of their CS regional post. Several
posts, however, requested additional support from CS, and five of the posts responding favorably
in the survey will likely be receiving less support from the CS post in the future, per the guidance
of CS’ MPR report. In its summary of the survey results, the State Department’s Economics and
Business Affairs Bureau explicitly mentioned five other posts that could benefit from more
active partnerships with their local CS post and three posts that were not partnered with a local
CS post but should be.

Guidance on CS’ role in the partnership post program should also outline the process for
determining whether individual State Department posts should have an active partnership with a
CS post in its region. According to the State Department, 20 State posts with commercial
programs have no active partnership with regional CS regional posts (see “unaffiliated” posts in
Table 3). While some of these countries are extremely small, others represent markets similar in



                                            24
U.S. Department of Commerce                                                    Final Report IPE-18322
Office of Inspector General                                                               March 2007

size to countries that have active partnership arrangements. The State Department has expressed
interest in developing CS partnerships at some of these posts, but Commerce and State have no
formal process for assigning such partnerships. They should work together to develop such a
process and issue guidance on the designation of partnership posts.

Another issue requiring some clarity and guidance is diplomatic accreditation of CS regional
officers at partnership posts. Commerce and State have not clearly defined the diplomatic status
of CS officers in the partnership post countries. Official diplomatic accreditation to those
countries may affect their ability to provide support to the partnership posts. Diplomatic
accreditation certifies to the host country government that the officer is an official representative
of the U.S. government. This may ease travel restrictions and facilitate interactions with the host
government for the officer. Some CS officers are currently accredited to partnership posts
countries, but others are not. The senior commercial officer at one post noted that his lack of
accreditation to one of his partnership posts makes it harder for him to support that post because
it is difficult for him to obtain a visa to travel to the country. CS officers’ diplomatic
accreditation may not be needed for all partnership posts. However, CS and State should define
criteria for determining when accreditation may be needed and outline appropriate procedures for
the accreditation of CS officers to partnership post countries.

An additional five State posts interact with CS primarily through its BISNIS (Business
Information Service for the Newly Independent States) program, which promotes U.S. business
involvement with the countries of the former Soviet Union. At these posts, locally-hired BISNIS
staff take a lead role in commercial and business-related activities at the post, and report to both
the State Department economic affairs counselor at the embassy or consulate and to CS’ BISNIS
headquarters office in Washington, D.C. These staffers are not, however, traditional CS trade
specialists, as they promote U.S. investment in the BISNIS countries as well as U.S. exports.
Additionally, the BISNIS staff do not report to CS officers in other posts. Because of this, these
posts do not receive as much support from CS regional posts as would posts whose locally-hired
CS staff report directly to a CS regional post, such as in Uruguay or Lebanon. Such support
could include supervision from the regional SCO and regular interaction with and assistance
from CS staff in the regional post. State posts with BISNIS staffers may, therefore, also benefit
from some level of partnership with local CS posts to complement the BISNIS program.
Commerce and State should also agree on an appropriate partnership arrangement for these
posts, if warranted, and issue guidance on this to their respective posts.

Both CS and the State Department would encourage each other to provide extensive support for
their respective commercial activities in the partnership post countries. The specific details of
the support provided by both State and CS in individual countries will necessarily vary
depending on the circumstances and resources of the individual offices and the commercial
potential of the country in question. However, CS should work with State to reach an agreement
and issue guidance that clearly defines the roles and responsibilities of both agencies in
supporting State’s partnership posts. At a minimum, this should define (1) the criteria used to
determine whether individual State Department posts should have a partnership arrangement
with a CS post, (2) the type and level of support to be provided by each agency, and (3)
appropriate partnership arrangements for posts with BISNIS personnel. A joint cable from CS
and State EB to both State partnership posts and CS regional posts would be appropriate way to



                                             25
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

issue guidance to both agencies’ posts. If this is not forthcoming, CS management should issue
guidance for its posts to help implement this agreement. In either case, the guidance should also
be included in the CS Operations Manual.

CS’ performance measures should account for partnership post activity. Most CS regional posts
have trained partnership post staff on providing services to U.S. businesses. In several cases, the
State Department has paid to send its staff to CS posts to receive training. The senior
commercial officers at some posts, however, told us they are unsure whether their training efforts
are valued or rewarded by CS management. One described training of State’s partnership post
staff as a “gray area.” However, most senior commercial officers told us that personnel at the
partnership posts in their region require additional training in order to provide services to
exporters that meet CS quality standards. One CS headquarters official emphasized the need for
performance measures that recognize the efforts of CS posts to support their partnership posts,
noting that such efforts imposed on the posts from headquarters without adequate incentives
usually fail.

As part of an ongoing strategic review by CS management, CS is using the “balanced scorecard”
process to more closely align organizational goals with personal performance goals. As part of
this process, CS is working to develop methods of recognizing and crediting activities at CS
posts that are not directly related to a specific export transaction, and thus cannot be credited as
an export success. At the time of our review, this process had not resulted in any concrete
change in performance measures for CS’ overseas staff. CS management had not yet determined
whether any updated performance measures would recognize the training and support that some
CS posts provide to State Department staff at their partnership posts. CS managers informed
OIG they do not consider cooperation with partnership posts to be a “burning issue,” due to the
relatively small amount of business generated from the posts. However, if CS wants to sustain
effective trade promotion programs in partnership post countries, its performance measures
should recognize the work performed by CS staff to support U.S. commercial interests and
promote exports in these partnership post markets. As CS reevaluates its performance measures
as part of its balanced scorecard exercise, it should develop ways of recognizing the substantial
efforts of some CS offices to support partnership posts.

D. A Commerce-State agreement is needed to address specific business processes at the
   partnership posts

The lack of established procedures for fee collections at partnership posts creates numerous
complications. According to the State Department survey of partnership posts, State collected
more than $64,000 in user fees during FY 2006 for services that it provided to U.S. companies at
the 61 partnership posts that responded to the survey (see Figure 7). Many of these user fees
were collected for the State Department by USEAC staff using CS’ standard payment system.
Other fees were collected directly by individual partnership posts or were collected by the
partnership posts’ CS regional posts.

Current fee collection practices at partnership posts have created some difficulties for U.S.
businesses, individual partnership posts, and CS. USEAC staff told us that client payments for
products and services provided by partnership posts can be difficult if the post does not use CS’



                                             26
U.S. Department of Commerce                                                        Final Report IPE-18322
Office of Inspector General                                                                   March 2007

   Figure 7:                                            payment system. According to USEAC staff,
   Federal Government User Fee Collections              some partnership posts may require companies
                                                        to mail checks directly to the embassy,
   Federal law provides that each service or            inconveniencing the companies and potentially
   thing of value provided by an agency to a            creating payment delays when mail service is
   person is to be self-sustaining to the extent        unreliable. However, not all partnership posts
   possible. OMB Circular A-25 establishes              that use CS’ normal payment system were
   federal policy regarding fees for U.S.               pleased with the process. Some of these posts
   government services and for sale or use of
                                                        complained about delays in receiving their
   federal goods or resources that convey
   special benefits to recipients beyond those          funds. Other posts with limited commercial
   accruing to the general public. The stated           activity felt that the nominal amount of money
   objective of this policy is have agencies            provided by the fees does not justify the
   recover their full costs of providing such           administrative burden of collecting and
   benefits, although federal law allows                transferring the fees. At posts such as Uruguay,
   exceptions to this requirement.                      where CS collects fees for services provided by
                                                        both Commerce and State employees, CS must
   Sources: OMB Circular A-25,                          separate accounting of these fees and ensure that
   31 U.S.C. § 9701                                     it does not improperly retain fees collected for
                                                        services provided by State personnel.

Both State and CS incur costs in delivering individual services at the partnership posts in cases
where CS posts provide active assistance for such services. While such cooperation could
enhance the services provided to the client, it can complicate fee collections for that service.
Because both agencies incur costs in providing the service, both could have the legal authority to
collect and retain fees for the service. Currently, the agencies collect only one user fee for
services at the partnership posts, which may be collected directly by the partnership post or may
be collected by CS. With only one fee collected for a service in which both CS and State
incurred costs, both agencies may have the authority to retain some of the same user fees,
creating the potential for confusion and disagreements over the allocation of the user fee
collections.

In order to prevent the mechanics of fee collection at partnership posts from becoming an
impediment to service delivery at these posts, Commerce and State should develop a formal
agreement that establishes a consistent fee collection policy and procedures and a pricing
structure for partnership post services. This fee collection process should be consistent with both
agencies’ legal authorities for collecting and retaining user fees. If Commerce and State elect to
make use of CS’ existing fee collection system for partnership post products and services, the
procedures should specify the steps and time frame for transferring collected fees and should
detail how Commerce and State will separate fee collections when necessary, including at joint
commercial posts such as Uruguay.

Commerce and State have not defined quality standards for CS-branded services at partnership
posts. To measure quality standards and customer satisfaction for CS products, CS surveys
customer satisfaction for most of its products and services and offers refunds to dissatisfied
companies. Some CS officers have expressed concerns that some partnership posts advertise but
cannot actually provide CS-branded services, such as Gold Key services. They fear that if



                                                   27
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

services provided at such posts don’t meet CS’ quality standards, it could damage the reputation
of CS’ products and services. Although CS’ domestic trade specialists did not identify this same
concern, CS has a legitimate interest in maintaining the quality reputation of its products.

In order to protect the brand value of CS’ products and services and ensure that services
delivered at partnership posts meet businesses’ expectation for these services, Commerce and
State should agree on specific quality standards for these branded services. Additionally,
Commerce and State should agree on how they will monitor the quality of these services, share
relevant customer satisfaction survey data, and follow-up with companies that are dissatisfied
with the services. Posts that cannot meet the agreed upon quality standards could still provide
support to U.S. companies, but should not be able to use CS’ established brands.

Commerce and State should clearly define training procedures for partnership post staff. During
2005 and 2006, at least three CS posts provided training on Commerce’s products and services
for officers and staff at their partnership posts. State personnel are planning to organize three
additional training sessions during 2007. Despite these initiatives, however, training for
partnership post staff on CS’ products, services, and IT tools is essentially ad hoc. Commerce
has not provided training for all partnership post staff, and Commerce and State have not agreed
on Commerce’s future role in providing training to State officers and staff at partnership posts.
Additionally, Commerce and State have not agreed on what training, if any, is required before a
partnership post can offer CS-branded products and services. Commerce and State should
clearly define Commerce’s role in providing training to State officers and staff at partnership
posts and stipulate any minimum training requirements for staff providing CS-branded products
and services. Guidance on such training responsibilities and standards should be provided to the
State and CS posts, and should be incorporated into the agencies’ operations manuals, as
necessary.

Commerce and State need to coordinate export success reporting at partnership posts. Another
area for increased coordination between State and Commerce is the reporting of export
successes. Both agencies identify export successes or transactions that result from their efforts to
assist U.S. companies and report these successes to the Congress. At partnership posts, however,
staff from both agencies may be substantively involved in contributing to an individual export
success and should individually be recognized for their contributions. However, without an
agreement on how export successes at partnership posts will be reported or credited, the potential
exists for double-counting because both agencies could separately report the same success. The
lack of an agreement also creates the possibility that staff from one agency will not receive credit
for their substantive support of export successes reported by the other agency. On the State
Department’s survey, one partnership post noted that combining export success reporting of the
two agencies would promote coordination between them. A model for such sharing already
exists, as CS’ export success reporting procedures now allow its USEACs and overseas posts to
share credit for the same success. In that instance, sharing export successes did contribute to
increased cooperation between the USEACs and the overseas posts.

Commerce and State should formally agree on appropriate procedures for reporting export
successes at partnership posts to ensure that export successes are accurately reported to Congress
and that staff in both agencies are fully recognized for their work. At a minimum, the agreement



                                            28
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

should specify how credit for export successes will be given when personnel from both agencies
have been substantively involved in an individual transaction and how the agencies will avoid
double-counting the same export successes.

E. Collaboration on information technology and market research should be expanded

Many partnership posts would benefit from access to CS’ IT resources. Commerce has
developed an extensive array of IT resources to support its trade promotion efforts. These
tools—most of which are Internet-based—allow CS staff easy access to trade promotion
resources and information, enable CS staff to submit new market research and trade leads online,
facilitate communication and networking among CS staff worldwide, and assist CS in tracking
its interactions with specific clients. CS management told us that CS has recently provided
access to its IT tools for some partnership posts, but only a minority of partnership posts
currently has such access. On the State Department survey, 47 percent of responsive partnership
posts reported they have access to some of CS’ IT tools, but only 24 percent of the total reported
that they had received appropriate training on the use of the IT tools.

Providing partnership posts with better access to CS’ IT systems would enhance the quality of
the export promotion services provided at these posts. By allowing State personnel direct access
to CS’ IT tools, State personnel would be able to directly submit market research and trade leads
to USEACs and export.gov, more easily access market research information, access CS’
extensive library of trade statistics and other export-related resources, find contact information
for CS staff and industry specialists, and better communicate with relevant CS staff. Some
partnership posts are frustrated that they have no access to CS IT systems. One post wrote, “All
trade lead reports have to go through our [CS regional post] causing delays and duplication of
work. The system would work much better if we had direct access to the [CS] computer system
and could upload the reports ourselves.” Another post wrote, “Having to go through our [CS
regional] post [for access to IT systems] creates delays, additional work for our partner post, and
things get lost in the cracks. I do not want to seem critical of our [CS regional] post because they
are trying to help. Nevertheless, they will never care about our projects and opportunities as
much as we do, and keeping us dependent upon them limits our scope of action.”

There is no obvious technical barrier to providing partnership posts with increased access to CS’
IT systems. CS is currently migrating its customer relationship management system to a web-
based platform. Once complete, most of its business-essential IT tools—including those
requested by partnership posts in the survey responses—will be accessible through any standard
Internet browser. CS should take appropriate action to provide all partnership posts with access
to web-based business-essential tools and should coordinate with State to broaden partnership
post access to any other IT systems relevant to commercial activities, as necessary.

State’s partnership post commercial websites are not fully integrated with those of CS’ overseas
posts. The existing commercial websites of partnership posts currently vary widely. Several
partnership posts have already developed commercial websites using the existing Internet
platform for CS’ overseas websites. For example, one partnership post recently developed a
commercial web page in coordination with its CS regional post that includes sections on the
post’s partnership arrangement, its commercial support program, and all programs available for a



                                            29
U.S. Department of Commerce                                                                Final Report IPE-18322
Office of Inspector General                                                                           March 2007

fee. Other partnership posts have dedicated sections on the CS regional post’s website. Some
partnership posts maintain commercial sections on the embassy website; which may or may not
be in addition to other Internet resources. While these existing partnership post websites may be
a good resource, many partnership posts do not maintain a separate commercial website, and not
all of the existing partnership post websites are linked to export.gov, making the pages more
difficult for U.S. companies to find. 7 Links to some partnership posts websites are listed on
export.gov, but at least five partnership post websites are not.

Integrating partnership post Internet sites into CS’ existing Internet website structures could
assist U.S. trade promotion efforts by making this content more accessible, allowing automatic
updates of the partnership post websites with relevant information, and creating a common look
and feel for overseas commercial websites, so that companies looking at more than one would
know where to find similar information. Making use of CS’ existing web infrastructure would
also make it easier, faster, and cheaper for partnership posts to develop their own websites,
which should allow more partnership posts to have commercial websites. CS should (1) work
with State to integrate the commercial websites of CS and State overseas offices, (2) provide
appropriate space for partnership post websites on its upcoming Internet platform, and (3) ensure
that all partnership posts with commercial websites are listed on export.gov.

Partnership posts are not included in CS’ market research planning process. Nearly all of the
partnership posts responding to the State Department survey (60 of 61) reported some market
research efforts. But those efforts are not coordinated with CS’ Trade Promotion Programs
office, which oversees market research for CS’ overseas posts and identifies market research
topics of interest to the U.S. business community. The Trade Promotion Programs office
develops an annual list of market research priorities for each country in consultation with CS’
overseas offices, ITA teams, and trade associations. None of the partnership posts participate in
this process because State and Commerce have not coordinated market research work. Including
partnership posts in CS’ annual market research process would assist the posts in identifying
priority market research topics relevant to businesses and complementary to CS’ market research
work. CS and State should work together to determine which partnership posts could provide
market research of interest to U.S. businesses and have the resources to conduct that market
research. CS should include those posts in its annual market research planning process.

F. USEAC staff could benefit from specific information on the individual partnership posts

USEAC trade specialists told us that State Department partnership posts have generally been
responsive to requests for market or other information and assistance, with only a few
exceptions. Most were satisfied with the level of support that they receive from the partnership
posts and felt comfortable referring their clients to them for export assistance, including standard
CS products and services such as Gold Keys. According to State’s survey, more than 50 percent
of commercial services delivered by partnership posts were provided in cooperation with the
USEACs.

However, USEAC staff could better support their clients’ needs in partnership post countries if
they had access to more specific information on commercial operations at individual partnership
7
    See chapter III of this report for an expanded discussion of the export.gov website.


                                                       30
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

posts. The State Department currently provides CS with a spreadsheet with points of contact for
the different posts, which State updates quarterly. The spreadsheet does not, however, provide
specific information on the types of products and services offered at individual partnership posts,
the prices charged for these services, and the amount of time normally required for delivery of
each service. This information—which is readily available for CS posts—would assist CS’
domestic trade specialists in understanding the capabilities of individual partnership posts to
support U.S. businesses. CS should work with the State Department to compile information
about the level of support each partnership post can provide.

Several USEAC trade specialists noted that information on the partnership posts is difficult to
find because it is not posted on CS’ intranet. Trade specialists use CS’ database to find contact
information for overseas posts, and not all of the trade specialists were aware of the partnership
post contact list spreadsheet. CS should post the appropriate contact information for the
partnership posts, as well as any additional information on product and service availability at the
posts, on its intranet.

CS should also clarify when it is appropriate for USEAC staff to inform the CS regional post of
business inquiries in partnership post countries and place appropriate instructions in its intranet
systems. The SCOs with whom we spoke told us that they generally want to be informed of such
inquiries at their partnership posts so they can offer assistance if necessary and ensure the
USEAC staff has the right point of contact at the partnership post. CS has not yet established
guidelines for the USEAC staff explaining whom they should be contacting when their clients
need services at the partnership posts.

Finally, State Department personnel have expressed the desire to improve outreach to and
receive feedback from USEACs. Opening direct lines of communication between Commerce’s
Office of Domestic Operations, which oversees the USEACs, and State’s Bureau of Economic
and Business Affairs, would facilitate such information exchange. The USEACs could usefully
provide State with information on the quality of export promotion services provided by the
partnership posts and could highlight any areas of concern with partnership post support.

Recommendations:

We recommend that the Under Secretary for International Trade and the Assistant Secretary
for Trade Promotion and Director General of the U.S. and Foreign Commercial Service
ensure that the following actions are taken:
    ¾ Establish a formal Commerce-State mechanism for planning and consultation on the
       partnership post program.
    ¾ In conjunction with the State Department, develop guidance on the partnership post
       program for CS regional posts and State partnership posts that:
           o Clearly defines the roles and responsibilities of State’s partnership posts and CS
               posts in supporting them, including when CS-State partnerships should exist;
           o Defines the type and level of support to be provided by each agency;
           o Discusses the criteria for determining when diplomatic accreditation of CS
               officers to partnership posts may be appropriate and defines procedures for such
               accreditation; and


                                            31
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

           o Specifies what partnership arrangements are appropriate for posts with BISNIS
              representatives.
   ¾   Develop performance measures or other appropriate ways of recognizing the efforts of
       CS posts that support partnership posts.
   ¾   Work with the State Department to develop an appropriate interagency agreement on
       business processes and issue implementation guidance for State and CS posts on
       cooperation related to the partnership post program which:
           o Establishes a fee collection and pricing structure for partnership post services that
              is consistent with both agencies’ legal authorities for collecting and retaining user
              fees and includes procedures for the transfer and retention of fees, as necessary;
           o Establishes quality standards for CS-branded services delivered at partnership
              posts and procedures for monitoring the quality of these services;
           o Defines Commerce’s role in providing training to State officers and staff at
              partnership posts and details any minimum training requirements for State officers
              or staff providing CS-branded products and services;
           o Defines procedures for reporting export successes at partnership posts, specifying
              how the reporting structure will credit staff from different agencies and will avoid
              double-counting export successes that Commerce and State report to Congress.
   ¾   Enhance Commerce-State cooperation at partnership posts by:
           o Providing all partnership posts with active commercial programs direct access to
              CS business-essential web-based tools and coordinating with State to broaden
              partnership post access to any other relevant CS or ITA IT systems;
           o Coordinating with State to (1) integrate the commercial websites of CS and State
              overseas offices, (2) provide appropriate space for partnership post websites on
              CS’ upcoming Internet platform, and (3) ensure that all partnership posts with
              commercial websites are listed on export.gov;
           o Coordinating with State to identify which partnership posts have the resources to
              conduct market research and include such posts in CS’ annual market research
              planning process.
   ¾   In conjunction with the State Department, take steps to help improve USEAC
       cooperation with the partnership posts by:
           o Providing USEAC staff with more complete information on individual
              partnership posts, including contact information, service availability, and service
              pricing, through CS’ intranet system; and
           o Opening lines of communication between the State Department’s Bureau of
              Economic and Business Affairs and Commerce’s Office of Domestic Operations
              to provide State with feedback on services provided by partnership posts.




ITA’s Response to OIG Draft Report and OIG Comments

In its response to our draft report, ITA concurred with our recommendations to enhance the
partnership post program and reported that it has made substantial progress towards
implementing many of these recommendations. ITA provided information on the status of its


                                            32
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

negotiations on the MOU with the State Department that will address many of the issues
identified in our draft report, including the need for a joint consultation and planning mechanism,
procedures for fee collection and funds transfer between State and Commerce, pricing and
quality standards for CS-branded products provided by partnership posts, procedures for
monitoring the quality of the products provided by the partnership posts, and partnership post
access to CS’ export promotion IT tools. ITA provided a copy of the draft MOU as an
attachment to its response. While the current draft may not address all of the issues that ITA will
need to include in the final MOU as agreed to with State, we are pleased to note that CS has
taken the initiative in presenting State with a new draft MOU for its consideration. We trust that
further progress will be made in these negotiations in the next 60 days and ask for an update on
the MOU in ITA’s and CS’ action plan.

In addition, CS has developed interim guidance on the partnership post program for its senior
commercial officers, which it provided to us as an addendum to its response. The interim
guidance defines the roles and responsibilities and the level of support to be provided by each
agency to support the partnership post program. The guidance proposes three tiers of State
partnership posts with varying levels of activity and support defined for each. The guidance also
includes training requirements for partnership posts and outlines performance measures relevant
to CS partnership post activity. ITA reported that CS is still negotiating certain aspects of this
guidance with the State Department and hopes to be able to issue final guidance on the
partnership program that will be sent in a joint Commerce-State cable to both State and
Commerce posts overseas.

In response to other recommendations in our draft report about Commerce-State cooperation,
ITA’s response indicates that CS plans to discuss ways of preventing duplicate reporting of
export successes with the State Department during future discussions of the proposed MOU.
ITA also agreed to provide space on export.gov for partnership post websites and include the
State Department in its market research planning process. These actions are positive steps
towards addressing our recommendations.

While ITA’s response addresses most of our recommendations on the partnership post program,
it did not provide a clear response to a few of them. ITA noted that there were limited
circumstances where diplomatic accreditation of CS offices to partnership post countries would
be appropriate, but it did not incorporate this issue into CS’ interim guidance on the partnership
post program or the draft MOU. As part of its action plan, ITA should describe how it will
provide guidance to the State and Commerce posts involved in the partnership post program on
when diplomatic accreditation is appropriate.

Additionally, ITA’s response does not address our recommendation to enhance USEAC
cooperation with the partnership posts. ITA mentioned that many USEACs already work
effectively with partnership posts, a point that we acknowledged in our draft report. ITA also
noted that under the pending MOU and joint program guidance to be finalized between State and
Commerce, partnership post service levels will become more consistent and predictable.
However, as part of its action plan, ITA should describe how it will provide USEAC staff with
more complete information on the partnership posts and how it will enhance communication
between CS’ Office of Domestic Operations and State’s Bureau of Economic and Business



                                            33
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

Affairs. As CS works with State to develop a joint Commerce-State planning and consultation
mechanism for the partnership post program, it should consider ways of including CS’ Office of
Domestic Operations in any regular Commerce-State communications resulting from this
mechanism.

Finally, one issue not explicitly addressed by ITA’s response, or in its interim guidance and draft
MOU, is State-Commerce coordination on staffing allocations. On March 28, 2007, the
Assistant Secretary for Trade Promotion and Director General of the U.S. and Foreign
Commercial Service announced a proposed restructuring plan involving the closing of 26 CS
offices around the world, the opening of four additional offices, and staff increases at another 10
offices. This proposed restructuring, like any change in CS staffing overseas, will significantly
impact the State Department by changing the posts at which State has primary responsibility for
supporting commercial diplomacy activities and otherwise supporting U.S. businesses. As such,
Commerce should ensure that its proposed reorganization is closely coordinated with the State
Department so that State can make appropriate plans for its staffing at the affected embassies and
consulates.




                                            34
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

III. Despite Recent Progress, ITA Can Further Improve the Effectiveness of Its Internet
     Trade Promotion Resources

Since 1994, ITA has permitted its offices to place their own information on the Internet, resulting
in a proliferation of websites with export information. This bottom-up approach resulted in some
excellent web pages which contain useful information, but ITA’s overall web presence lacks
coherence, with duplicated content across the spectrum of multiple web pages that are not well
integrated. A business interested in pursuing foreign markets must visit many web pages to
ensure that it is getting all the available export information. This necessitates numerous clicks of
the mouse and may discourage customer use. ITA has taken some positive steps in the last few
years, including establishing a working group in February 2006 to coordinate a common look
and feel for ITA Internet sites. However, ITA needs to clarify the decision-making responsibility
for organizing Internet content, further organize and integrate its websites, and continue to
improve the export.gov portal.

A. Decision-making responsibility for Internet content issues should be clarified

In February 2006, ITA established a web governance board made up of representatives from
each of the four ITA line offices and representatives from the public affairs office and the Office
of the Chief Information Officer. The board’s members include both technical experts and web
content managers. At weekly meetings, the board focuses on the look, feel, and usability of ITA
websites. The board is reducing or replacing duplications, dead links, and outdated information,
but has limited responsibility for strategically managing ITA’s Internet content. These meetings
between program specialists and information technology experts have improved communication
and coordination about websites within ITA. For example, the board has decided that export.gov
will focus on providing information to U.S. exporters and buyusa.gov will focus on providing
information to foreign buyers, agents, and distributors.

Although members of ITA’s web governance board report that ITA’s leadership team approves
the board’s consensus recommendations, the members and senior decision makers in ITA could
not clearly articulate the lines of authority for decision-making on content issues. The board
members did note however, that it does not have responsibility for strategically managing ITA’s
Internet content. Currently, each ITA organization has responsibility for managing the Internet
content of its particular website, but has no authority over the content of other organizations’
websites. As a result, many officials share responsibility for managing ITA’s collective Internet
content, including ITA’s chief information officer, the Deputy Under Secretary for ITA, the
deputy director general for the Commercial Service, the ITA marketing director, and the CS
marketing director.

While the current decision-making structure for managing Internet content naturally reflects
ITA’s organizational structure, this may not be the best way to manage this process. The
fragmented responsibility for the basic organization of Internet content hinders ITA’s efforts to
logically present all of its export-related information. ITA should assign clear responsibility for
decision-making on the organization and content of ITA’s various websites in order to ensure
that this content is organized according to the needs of exporters.




                                             35
U.S. Department of Commerce                                                        Final Report IPE-18322
Office of Inspector General                                                                   March 2007

B. The presentation and usability of ITA websites have improved but much work remains

Despite recent progress, ITA’s websites still have duplicative, confusing, disorganized, and
outdated pages. ITA has eliminated some duplicate
Internet websites, including usatrade.gov and             Figure 8: Export.gov
buyusa.com. In the last several years, ITA also
worked with SBA to eliminate its tradenet.gov             Export.gov was launched in 2000 to be the
                                                          federal government’s unified trade
website, and ITA stopped a USDA export website            promotion assistance portal. According to
that was in development. ITA's corporate website          the 2006 National Export Strategy,
(trade.gov) has been reorganized and updated to focus export.gov is supposed to be the
on providing information on trade and investment,         government’s one-stop source for trade
industry competitiveness, and fair trade to the           assistance for companies interested in
                                                          expanding into foreign markets. ITA
Congress, the media, and the nonexporting public.         redesigned the export.gov website and
Despite this progress, many ITA websites remain           launched the new site in February 2006. In
dated.                                                    FY 2006, export.gov received 2.2 million
                                                             unique (or new) visits, up from 1.7 million
Another problem is that USEAC sites reside on the            unique visits in FY 2005. Market research
                                                             is the most popular page after the home
buyusa.gov site, but that site’s main purpose is to          page with the bisnis.doc.gov and the
assist foreign importers and buyers seeking U.S.             export.gov/china pages following behind
sources of supply, not exporters. CS recognizes this         with 756,603 and 309,265 unique visitors,
problem and told us it has plans to move the USEAC           respectively.
sites from buyusa.gov to export.gov. Once this
                                                             Source: CS Update, December 2006 and
happens, potential U.S. exporters will no longer need        CS Scorecard: U.S. Trade Promotion
to visit buyusa.gov to access the USEACs for                 Office Outreach and Marketing Results,
assistance. CS should quickly move forward to                FY 2006
switch the USEAC sites from buyusa.gov to
export.gov (see Figure 8).

During our review, we found several ITA websites that were not integrated with other ITA web
resources serving the same customers (see Table 4). For example, BISNIS has a highly visited
website for U.S. companies to explore export and investment opportunities in Russia and
Eurasia. This site’s content, often locally generated by BISNIS field representatives, is not
always found on export.gov. Presently, exporters looking for upcoming trade shows in Russia or
Eurasia must visit both export.gov and BISNIS’ website to find the information they are looking
for. Additionally, the Export Trading Company Affairs website, which provides assistance for
U.S. companies interested in combining their exporting efforts, is a stand-alone site that should
be integrated with the rest of ITA’s websites. Beyond placement issues, several of ITA’s
websites are not regularly updated or decommissioned in a timely manner. The African Growth
and Opportunity Act’s website, for example, is an unwieldy compilation of links and resources,
many outdated or not functioning. Another website, buyusainfo.net, hosts a market research
library with outdated information. Additionally, most of the market research documents on that
site are now included on export.gov. Finally, ITA’s Trade Development office, which no longer
exists, still has an accessible site called Trade Finance Matchmaker. ITA should take steps to
integrate relevant content from these websites into the trade.gov or export.gov sites and/or
decommission them.




                                              36
U.S. Department of Commerce                                                              Final Report IPE-18322
Office of Inspector General                                                                         March 2007

                    Table 4: Characteristics of Customer-Oriented ITA Websites
Internet Site             Owner         Customer Focus                                      Office(s) Providing
                                                                                                 Content
export.gov                TPCC/CS       Federal government’s one-stop export              CS currently provides
                                        assistance portal.                                almost all content.
                                                                                          State Department also
                                                                                          provides content.
trade.gov                 ITA           Corporate website has been reorganized to         Four ITA line offices:
                                        focus on ITA’s three strategic goals. Provides    CS, MAS, MAC, and
                                        information for the Hill, the media, and the      IA
                                        nonexporting public.
buyusa.gov                CS            Helps international importers locate U.S.         CS overseas
                                        supply sources. Helps U.S. exporters find         posts/USEACs
                                        non-U.S. importers and buyers seeking U.S.
                                        sources of supply.
buyusainfo.net            CS            Hosts overseas posts’ country commercial          CS overseas
                                        guides and market research reports.               posts/USEACs
tradeinfo.doc.gov         Trade         Provides links to comprehensive resources         TPCC
                          Information   with information on federal government
                          Center        export assistance programs. Sections of the
                                        site duplicate export.gov.
e-market express          CS            Sends newsletter to registered businesses,        USEACs
                                        usually on a quarterly or semiannual basis.
                                        Newsletter contains trade leads, events and
                                        market research, by industry or region.
Business Information      CS            Provides real-time updates, market reports,       BISNIS
Services for the Newly                  and export leads to U.S. companies exploring
Independent States                      export and investment opportunities in Russia
(BISNIS)                                and Eurasia.
Multilateral              CS/           Provides companies with a sample of               CS Officers at the
Development Banks         Advocacy      development projects by multilateral              Multilateral
Lead Line                 Center        development banks. The projects in Lead           Development Banks
                                        Line are a snapshot of opportunities that the
                                        CS commercial liaison officers at the banks
                                        determine may interest U.S. companies.
Export Trading            MAS           Provides assistance to U.S. companies             Export trading
Company Affairs                         seeking to form a joint venture in order to       company affairs
                                        export.
Source: Commerce Websites

The Trade Information Center’s web presence is outdated and no longer meaningful. CS’s
Trade Information Center (TIC) relies on a 1998 online guide to exporting, outdated web pages,
and its 1-800-USA-TRADE telephone number to provide information on federal government
export assistance programs, export counseling help, and information on tariffs and customs
procedures for specific countries. At the time of our review, CS was planning to integrate the
TIC website into export.gov, but had not yet done so as of February 15, 2007. Trade specialists
at several USEACs told us that because of the growth of export.gov and the condition of the
TIC’s website, neither they nor their exporting clients frequently use the TIC’s online resources
anymore. According to the center’s data, the volume of phone calls to the 1-800 number has
declined from 1,000 per week in 2005 to 600-800 per week in 2006, and total inquiries declined
34% from 2004 to 2005 and 36% from 2005 to 2006. Clearly the TIC needs to find a new way
to deliver its services to the U.S. exporting community.



                                                37
U.S. Department of Commerce                                                          Final Report IPE-18322
Office of Inspector General                                                                     March 2007


Retaining the 1-800 number as the main way of contacting the trade information center may
contribute to the decline in inquiries from exporters. Several trade association representatives
told us that Australia’s export promotion website allows real-time Internet chats with trade
specialists, a feature that has been very successful for the Australians in reaching their clients and
one that should be considered for CS’ trade information center to reach the growing number of
exporters who prefer to use the Internet to communicate. Additionally, as CS goes through the
process of integrating the separate trade information center website, there may be opportunities
for the center to collaborate more closely with CS’ trade logistics partners and make the center’s
staff more accessible to potential clients. Historically, one of the primary roles of the trade
information center was to provide updated information on tariffs, taxes, and customs procedures
for specific countries. While the center website still provides such information, it is extremely
difficult to find from export.gov. A trade specialist at one of the USEACs noted that FedEx, one
of CS’ private sector partners, also provides such information on its website. As CS revamps the
trade information center web presence, it should (1) consider whether efficiencies could be
gained from closer collaboration with FedEx on identifying country-specific tariffs and customs
procedures, and (2) develop an online chat function for export.gov run by the TIC’s staff, if
feasible.

C. Export.gov needs to be a one-stop resource for federal trade assistance

Export.gov, which is marketed as a one-stop federal source for U.S. exporters, includes resource
information and abundant links to information in the Department and other federal agencies.
During this review, we heard comments about the usability of export.gov that ranged from
“incredible” to “a mess.” However, many who regularly use the site said they like the February
2006 redesign and the ongoing changes to improve the site’s usability, look, and feel. For
example, the new structure on the initial export.gov web page directs new-to-exporting
businesses and the more seasoned exporters to the resources relevant to them.

However, export.gov does not offer the totality of information relevant to exporters from
Commerce’s or the TPCC agencies’ websites. One regular user said, “export.gov is the most
important resource for trade assistance out there. I assume that we are getting everything the
U.S. government has to offer.” Unfortunately, this is not the case. Despite recent advances,
export.gov is still not a comprehensive online source for export assistance from the federal
government, as claimed in The 2006 National Export Strategy. Businesses are not able to
register and then log-in to the site and easily find all the TPCC agencies’ export and trade
services. CS provides most of export.gov’s content, but the site includes links to many other
federal home websites. 8

Unfortunately, technical issues may hinder further integration of web content onto export.gov
from TPCC agencies. One technology specialist told us that the integration of content from other
agencies’ websites to export.gov would be expensive and time-consuming. Export.gov should at
a minimum provide more links for exporters to relevant content on the other TPCC agencies’

8
 Commerce now provides a higher percentage of content to export.gov than it did in 2000, when it provided 80
percent of the site’s content. U.S. Department of Commerce Office of Inspector General, March 2001. Although
Progress Has Been Made, More Needs to Be Done to Deliver On-line Export Information and Services, IPE-13213.


                                                38
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

websites, not just links to the TPCC agencies’ homepages. As the TPCC agencies develop their
Internet resources, there may be opportunities to further integrate their export-related content on
export.gov. ITA should coordinate more closely with the other TPCC agencies to consolidate
relevant information for exporters onto the export.gov portal.

Even within ITA, relevant information is not always posted to export.gov. For example,
information on locally-sponsored trade events may be listed on the websites for individual CS
posts but not on export.gov. Likewise, information on local events that are posted on USEAC
websites is sometimes not posted to export.gov. BISNIS’ website also contains useful
information such as trade activities and leads, which is not referenced on export.gov. For
export.gov to come closer to being a one-stop resource, ITA must make sure it integrates all
export-relevant information from CS’ domestic and overseas office websites, including locally
sponsored trade events and trade leads listed on CS posts’ buyusa.gov websites, USEAC sites,
BISNIS sites, and other Commerce web pages.

Recommendations:

We recommend that the Under Secretary for International Trade and the Assistant Secretary
for Trade Promotion and Director General of the U.S. and Foreign Commercial Service
ensure that the following actions are taken:

   ¾ Assign clear responsibility for decision-making on the organization and content of ITA’s
     various Internet websites in order to ensure that this content is well organized and easily
     accessible to exporters.
   ¾ Improve the organization and content of ITA’s Internet web pages by:
          o Moving forward with ITA’s plan to move the USEAC websites from buyusa.gov
            to export.gov;
          o Integrating content from ITA’s various trade promotion websites, such as the
            Trade Information Center, BISNIS, Trade Finance Matchmaker, and
            buyusainfo.net, into export.gov, and decommissioning those that are no longer
            needed;
          o Considering the addition of real-time Internet chat capability for trade specialists
            in the Trade Information Center and closer collaboration with FedEx or another
            good source to identify and update country-specific tariffs and customs
            procedures;
          o Coordinating with other TPCC agencies to consolidate each agency’s export-
            related information onto the export.gov portal and include more links to relevant
            content on the TPCC agencies’ websites; and
          o Ensuring that export.gov contains relevant information about locally-sponsored
            trade events and trade leads listed on CS posts’ buyusa.gov websites, USEAC
            sites, BISNIS sites, and other Commerce web pages.




                                             39
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007




ITA’s Response to OIG Draft Report and OIG Comments

In response to our recommendation to streamline and clarify the decision-making process for
organizing ITA Internet content, ITA outlined the roles and responsibilities of the ITA web
governance board. ITA’s characterization of the responsibilities and authorities of the ITA web
governance board, however, is inconsistent with what we heard from web governance board
members during our review. ITA’s response indicates that the web governance board has
responsibility for the organization of all ITA internet content. The board members, however,
told us that their role was to ensure that ITA’s websites have a more consistent look and feel and
that the board did not have the authority or mandate to reorganize internet content across ITA’s
various websites. ITA should ensure that all board members fully understand their mandate to
ensure that ITA’s web content is delivered along “customer-centric channels” and that they are
held accountable for this responsibility. We ask that ITA provide additional clarification of the
board’s responsibilities as part of its action plan.

ITA substantially agreed with our findings regarding the organization and content of ITA’s
Internet web pages and outlined plans to decommission and integrate “various disparate sites,”
including plans to consolidate the TIC and USEAC websites into the export.gov portal. We
appreciate the Deputy Under Secretary’s response and her commitment to continue ITA’s
progress on organizing and coordinating ITA’s Internet trade promotion resources. ITA did not
directly address the recommendation to evaluate ways of collaborating more closely with its
partners regarding the identification of country-specific tariffs and customs procedures. We
request that ITA outline any planned actions in response to this recommendation as part of its
action plan.

ITA’s response also indicated that TPCC agency content is already incorporated into export.gov.
While we recognize that ITA is working to further integrate TPCC agency content, our review
found that the vast majority of the content on export.gov was provided by CS. ITA noted that a
newly established TPCC working group will include export.gov content issues on its agenda.
We anticipate that this working group should provide a forum for further consolidating TPCC
Internet content for exporters into the export.gov portal and helping to ensure that TPCC
agencies do not develop duplicative Internet content.




                                            40
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

IV. Identification and Communication of Trade Leads Should be Improved

The identification of trade leads—specific export opportunities for U.S. firms—is a useful but
non-core aspect of Commerce’s trade promotion efforts. Most CS trade specialists told us trade
leads rarely result in an immediate export transaction, but they are useful as a means to network
with local businesses, develop client interest in new markets, and build the relationships
necessary for successful global trade transactions. However, there are opportunities to develop
more useful and timely trade leads that could result in increased exports for U.S. companies. CS
should improve the process of identifying and communicating trade leads to exporters, develop a
consolidated portal containing all TPCC member agencies’ leads and actual business
opportunities, and improve the technological capabilities of the export.gov trade lead database.

A. Trade leads are useful but result in few direct export transactions

CS overseas posts identify export opportunities that might be relevant for U.S. companies to be
listed on the export.gov web portal and made available to the USEAC staff through CS’ intranet
system. USEAC trade specialists told us that the trade leads facilitate their outreach to
businesses by providing opportunities for them to call on their clients to discuss the leads. Some
trade specialists told us that they had realized some export successes through trade leads,
although relatively few trade leads result directly in a business transaction. Most stakeholders,
including USEAC trade specialists and industry groups, cited CS’ market research products as
the more immediately valuable resource for exporters.

Trade specialists told us leads can assist them in developing relationships and networking within
the exporting community because they demonstrate CS’ capabilities in identifying opportunities
in foreign markets and thus help provide an entrée with prospective new clients. All of the trade
specialists we spoke to felt CS should continue identifying and communicating trade leads even
though they may not generate immediate export successes.

B. The TPCC trade lead database should contain a comprehensive listing of federal export
   opportunities

While export.gov is currently being marketed as the federal government’s one-stop shop for
export resources, it does not offer a consolidated portal for trade leads from TPCC member
agencies that develop or have access to trade leads. It does not even include trade leads
generated by other Commerce Department organizations.

Exporters must search multiple websites to find export opportunities identified by TPCC
agencies because export.gov currently features only trade leads from overseas CS posts and
select State Department partnership posts (see Figure 9). Three other bureaus within Commerce
and at least four other TPCC agencies do maintain information on specific export opportunities,
but they are not integrated into the export.gov trade lead database.




                                            41
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

                    Figure 9: Export.gov and Federal Agency Trade Leads
  Agency Trade
                              Trade Leads Identified by Federal Agencies but NOT found on
  Leads found on
                                                       Export.gov
    Export.gov




                                                                             Asian Development Bank




                              African Development Bank




Exporters seeking comprehensive information on trade leads identified by the TPCC member
agencies have to visit at least eight additional websites because export.gov does not function as a
consolidated web portal for trade leads (see Table 5). Although export.gov does offer links to
most of these websites, the process of finding and reviewing all of these sources of export
opportunities is both confusing and time-consuming. Without one consolidated portal for trade
leads, CS staff, stakeholders, and interested companies are unable to quickly and efficiently
evaluate leads. In addition, because export.gov is marketed as the federal one-stop shop for
exporting, interested exporters may not be aware that other federal agencies have identified
additional export opportunities not currently promoted on the site. A consolidated portal would
save time spent searching multiple Internet sites and would eliminate possible confusion among
exporters regarding where to look for trade leads.




                                                   42
U.S. Department of Commerce                                                              Final Report IPE-18322
Office of Inspector General                                                                         March 2007



                       Table 5: U.S. Government Sources of Trade Leads*
                                                              Posted to
         Agency                 Trade Opportunities                          Distribution of Opportunities
                                                              Export.gov
U.S. Commercial Service     Opportunities identified by CS       Yes         Most are posted on export.gov.
(Commerce/ITA)              overseas posts                                   Some may only be sent directly
                                                                             to ITA industry team members
                                                                             through E-Market Express
                                                                             newsletters.
Advocacy Center             Opportunities relating to              No        Advocacy Center’s Lead Line is
(Commerce/CS)               overseas development projects                    available on the Advocacy
                            and procurements at the five                     Center’s web page.
                            multilateral development
                            banks
Business Information        Export and investment                 No         www.bisnis.doc.gov contains a
Service for the Newly       opportunities in Russia and                      search of three types of trade
Independent States          Eurasia                                          leads for Russia and Eurasia.
(BISNIS) (Commerce/CS)
Minority Business           Limited numbers of export              No        Opportunities are listed on
Development Agency          opportunities identified by                      MBDA’s Phoenix Opportunity
(Commerce)                  MBDA international trade                         database.
                            specialists
State Department            Opportunities identified by           Yes        There are various methods, with
                            some of State’s overseas posts                   some posted on export.gov.
Small Business              SBA is coordinating with               No        These leads will be posted on
Administration (SBA)        small business agencies in                       SBA’s website.
                            other countries to identify
                            export opportunities for U.S.
                            firms.
U.S. Trade and              Various overseas projects              No        TDA’s Pipeline newsletter lists
Development Agency          supported by TDA grants.                         competitive business
(TDA)                                                                        opportunities, identifies overseas
                                                                             development projects, and
                                                                             reports on preliminary studies of
                                                                             projects.
U.S. Agency for             USAID projects overseas,               No        USAID projects are highlighted
International Development   which may lead to sales                          on its web page.
(USAID)                     opportunities for U.S. firms.
Millennium Challenge        MCC grants may lead to                 No          MCC’s website links to Partner
Corporation (MCC)           overseas sales opportunities                       Country Procurements, which
                            for U.S. firms.                                    lists opportunities with MCC-
                                                                               partner nations.
* We did not review any potential trade leads identified by the Department of Defense
Source: OIG Analysis

While Commerce houses the TPCC and its portal for trade leads, leads from buyusa.gov,
BISNIS, the Advocacy Center, and the multilateral development banks, all of which come from
Commerce sources, do not show up on export.gov (see Figure 10). BISNIS’ trade leads are only
posted on the BISNIS website. The BISNIS-generated trade leads are very similar to those
identified by CS staff overseas and should be posted using CS’ trade lead system.



                                                   43
U.S. Department of Commerce                                                          Final Report IPE-18322
Office of Inspector General                                                                     March 2007

 Figure 10: Multiple Commerce Sources of      The Advocacy Center publishes the Lead Line, a
            Trade Leads for Azerbaijan        quarterly list of trade leads related to opportunities at
                                              the five multilateral development banks. This list is
 On September 28, 2006, the trade lead        only accessible through the Advocacy Center website
 database on export.gov stated that there
 were no trade leads for Azerbaijan, even     or through special e-mail lists coordinated by the CS
 though such leads were available on other    officers posted at the banks. These methods of
 Commerce websites. The buyusa.gov            communicating trade leads only reach companies that
 Azerbaijan web page showed one               are already aware that trade opportunities exist
 construction trade lead. BISNIS showed one   through the banks and which are specifically searching
 telecommunications trade lead. The Asian
 Development Bank’s website showed            for such information. There is no direct link from the
 several additional opportunities, as did the export.gov trade leads section to the Lead Line. The
 World Bank website.                          Lead Line can only be accessed via export.gov by
                                              going through the section for advocacy assistance.
 Source: export.gov, buyusa.gov, and          Wider distribution of the multilateral development
 BISNIS websites
                                              bank trade leads through the export.gov database and
more education about what export opportunities the banks have to offer would benefit U.S.
companies (also see Chapter V for a discussion of these banks).

Commerce’s MBDA also highlights some trade opportunities on its Phoenix Opportunities
database that might be relevant for the broader audience attracted by the export.gov website. CS
should work with MBDA to post its applicable trade leads on the export.gov website. Such
posting could increase the visibility of MBDA’s trade leads to minority-owned businesses.

C. Better technology and specificity could improve the usefulness of the TPCC database of
   trade leads

The current export.gov trade lead system does not
automatically send registered companies                                    Figure 11:
information on export opportunities that match their         The Global Trade & Technology Network
online profile. This technology was previously             The Global Trade & Technology Network (GTN)
available on the USAID-funded Global Trade and             was a USAID-funded and operated e-commerce
Technology Network (GTN), but is not part of the           Internet platform started in 1997 to assist small
technology that export.gov currently uses (see             and medium-size enterprises and promote
Figure 11). For small to medium-sized enterprises,         economic growth in developing countries through
                                                           trade, investment and technology transfer. Once
the ability to have automatic notification of              registered, firms submitted information regarding
potential leads is a valuable time and resource-           leads (buy, sell, investment) in all industry sectors
saving tool.                                               to the GTN Internet platform. These leads were
                                                           vetted by GTN representatives located in foreign
CS’ E-Market Express newsletter provides trade             countries, then matched and electronically
                                                           distributed to registered GTN firms worldwide.
lead information in a somewhat similar manner as           By fall of 2006, the GTN system was not actively
GTN’s automatic notification, but this CS tool has         used, USAID funding had ceased, and the trade
its shortcomings. These newsletters do highlight           lead database was closed. The GTN technology
some trade leads in specific industry sectors and          was provided to CS, but has not been used for the
geographical locations, but the trade leads are not as     export.gov trade lead database.
timely or specific as those that could be generated        Source: Current and former GTN staff
through an automated system. E-Market Express



                                              44
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

leads are untimely because the newsletter is only produced when there is enough relevant
information to pass to an industry team. This could be monthly, quarterly, or even less
frequently throughout the year. CS should explore whether automatic notification technology
would be a useful and cost-effective tool for its export.gov trade lead database system.

Another improvement to export.gov’s trade lead system that CS should consider is the addition
of more specific industry categories to the trade lead database. Several trade specialists at
USEAC offices noted that the industry categories used on the current trade lead database were
too broad, particularly for service industries. By allowing companies to select more specific
industry categories when creating their online profiles, any automatic notification system
developed for the trade lead database will produce trade leads that more accurately reflect
companies’ search criteria.

Recommendations:

We recommend that the Under Secretary for International Trade and the Assistant Secretary
for Trade Promotion and Director General of the U.S. and Foreign Commercial Service
ensure that the following actions are taken:

   ¾ Consolidate or replicate trade leads and export opportunities identified by all relevant
     TPCC and Commerce organizations in the export.gov trade lead database.
   ¾ Explore options for improving the technology and specificity employed for the
     export.gov trade lead database including,
         o Implementation of a cost-effective automatic notification function for matching
            trade leads to a company’s online profile; and
         o The addition of more specific industry categories for the export.gov trade lead
            database.




ITA’s Response to OIG Draft Report and OIG Comments

The Deputy Under Secretary for International Trade provided a response to our
recommendations related to consolidating all relevant TPCC and Commerce trade leads into
export.gov, as well as exploring options for improving the technology and specificity of the
export.gov trade lead database. ITA agreed to survey the TPCC agencies to ensure the
appropriate trade leads are included in export.gov. ITA also indicated that it would follow up on
our recommendation to consider adding an automatic notification function to the export.gov
trade lead database, as well as increasing the industry specificity used to match trade leads with a
company’s online profile. In its response to a recommendation made in Chapter III, ITA also
agreed to add multilateral development bank trade leads to the export.gov database. We
appreciate ITA’s commitment to enhancing the export.gov trade lead resource for U.S. exporters.




                                             45
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

ITA disputed the assertion in our draft report that SBA and USAID may provide relevant trade
leads. However, as discussed in the draft report, we found that SBA is planning to identify
information on export opportunities for U.S. firms, and USAID projects may result in export
opportunities for U.S. firms. We encourage ITA officials to coordinate closely with SBA
because of its plans to develop a parallel trade lead database that would duplicate the
functionality of the export.gov database and its plans to identify trade opportunities for U.S.
firms by working with small business associations in foreign countries. As stated in the draft
report, we found that USAID and MCC projects could provide possible export opportunities for
U.S. companies when those agencies provide funds directly to foreign governments. When
foreign governments are free to procure goods and services competitively, their procurement
tenders are valid export opportunities, even though the original funding may have come from the
U.S. government. We encourage ITA to work with USAID and MCC to develop a process for
highlighting any projects that might result in export opportunities for U.S. firms. As
recommended in our draft report, we ask that ITA incorporate notices of such projects into the
export.gov trade lead database.

In response to our recommendation that ITA consolidate and rationalize its multiple Internet
platforms (see Chapter III), ITA stated that BISNIS maintains an ITA platform that is technically
incompatible with export.gov, and thus the agency could not easily consolidate the BISNIS and
export.gov trade event listings. ITA’s response does not, however, discuss whether it could
integrate BISNIS trade leads into the export.gov platform and does not explain why information
on the BISNIS website cannot also be replicated on export.gov. As part of its action plan, ITA
should discuss its plans to integrate BISNIS trade leads into export.gov or explain if these trade
leads will be replicated in the export.gov database.




                                            46
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

V.   CS Can Better Communicate Trade Opportunities at the Multilateral Development
     Banks

The Advocacy Center oversees Commerce’s               Table 6: CS Staffing at the Multilateral
operations at the five multilateral                              Development Banks
development banks, which fund                         Bank Name             Location
                                                                                           Number of
development projects around the world. The                                                  CS Staff
                                                  Asian Development
Center’s staff, as well as CS officers and                             Manila, Philippines     5
                                                  Bank
staff at the banks and a few trade specialists,   African
have taken positive steps to increase U.S.                                Tunis, Tunisia       1
                                                  Development Bank
business awareness of opportunities at the        European Bank for
banks. While most CS officers, state trade        Reconstruction &      London, England        2
agencies, and other federal agencies that we      Development
                                                  Inter-American
spoke with were generally aware that bank         Development Bank
                                                                        Washington, DC         2
projects may present export opportunities,
                                                  World Bank            Washington, DC         2
many of them were unaware of the full range
of trade and finance opportunities at the         Source: Advocacy Center
banks. It can be difficult and time-consuming for companies to take advantage of business
opportunities through the banks, but such opportunities may be appropriate for some companies
and are not widely understood by international trade specialists. In order to improve the
awareness of bank opportunities by exporters and trade assistance agencies, CS should better
define trade finance, consulting, and other direct procurement opportunities at the banks and
improve its outreach to key stakeholders on bank opportunities.

A. CS should better define trade finance and direct procurement opportunities at the banks

CS is just beginning to highlight trade finance opportunities at the banks. All five of the
multilateral development banks with CS officers provide financing and investment guarantees
that might be beneficial to U.S. companies. Such finance assistance may be offered by a bank
alone or in conjunction with financing and investment guarantees offered by the Small Business
Administration (SBA), the Export-Import Bank of the United States (ExIm Bank), the Overseas
Private Investment Corporation (OPIC), other multilateral development banks, or private banks
(see Table 7).

CS has not clearly defined which trade finance products offered by the banks could be useful for
U.S. companies, and provides only limited information on these finance opportunities on the
bank’s websites and the export.gov portal. Though the export.gov website has a section
dedicated to international finance, this section does not include information on multilateral
development bank financing. Some of Commerce’s individual bank websites do have a synopsis
of the bank’s private sector lending opportunities, but all lack targeted, how-to information on
finance and investment guarantee programs. By contrast, we found that Canada’s Foreign
Affairs and International Trade Ministry website provides detailed information on private sector
financing opportunities at the World Bank and four regional banks, including information on
eligibility, the types of projects funded, financing instruments available, and how to apply for
financing. The Ministry website also provides a detailed country-by-country listing of possible
sources of trade financing (see Table 7).



                                             47
U.S. Department of Commerce                                                                Final Report IPE-18322
Office of Inspector General                                                                           March 2007



        Table 7: Trade Finance Opportunities at the Multilateral Development Banks
              Bank                      Financing/Private Sector           Political Risk/Credit Guarantees
                                    •   IFC funds up to 25% of new       •  IFC offers partial credit guarantees
    The World Bank Group                projects, or up to 50% of        •  MIGA offers investment guarantees
     International Finance              expansion projects                  up 95% of the total project value.
      Corporation (IFC);            •   MIGA covers equity               • MIGA has a coinsurance program
    Multilateral Investment             investments up to 90%, and          with private insurers to cover
   Guarantee Agency (MIGA)              debt up to 95%                      political risk

                                    •    Funds up to 25% of project      •   Offers risk products for up to 50% of
  Inter-American Development             cost                                project cost
             Bank                   •    Provides corporate finance      •   Offers credit guarantees of up to
                                         and project finance loans           25% of project cost
      European Bank for             •    Funds up to 35% of total        •   Risk guarantees up to 100% of
 Reconstruction & Development            project cost                        project cost
                                    •    Offers various types of         •   Offers various loan guarantee
                                         project funding and can             products
   African Development Bank
                                         syndicate loans from other
                                         lenders
                                    •    Funds up to 25% of total        •   Offers coverage against
                                         project cost                        expropriation, currency
    Asian Development Bank
                                                                             inconvertibility, political violence,
                                                                             and breach of contract
Source: Canadian Ministry of Foreign Affairs and International Trade,
http://www.infoexport.gc.ca/ifinet/projectfin/finance-e.htm; data was last updated in May 2004.

In order to help U.S. companies take advantage of trade finance opportunities at the multilateral
development banks, CS needs to clearly define which financing opportunities might be
applicable to U.S. companies and how these could complement other financing sources. CS
should also make sure that such information is highlighted on the appropriate websites, including
export.gov.

CS should better define direct procurement opportunities at the banks. Several CS bank officers
told us that many companies are involved for years in developing bank projects before winning a
major procurement resulting from that project. Because of the required time commitment, many
of CS’ domestic trade specialists feel the banks represent a niche market suited for only large
companies with extensive resources. One trade organization representative said small companies
should “probably stay out of [bank] issues.” Although pursuing the banks’ major development
projects may not be feasible for smaller companies, there are other opportunities less widely
known.

CS officers at the banks noted that technical assistance contracts and other direct procurement
opportunities may be good prospects for smaller U.S. companies. These contracts are generally
smaller procurement opportunities that may not interest larger companies, and can result in short-
term sales opportunities (see Figure 12). In some cases, greater U.S. business participation in
smaller service contracts may also improve opportunities for U.S. companies in the larger bank
projects. For example, greater U.S. participation in the formative stages of projects could help to



                                                    48
U.S. Department of Commerce                                                        Final Report IPE-18322
Office of Inspector General                                                                   March 2007

              Figure 12:                  ensure that projects are developed using technical standards
  Technical Assistance Opportunities      that do not bias the project against U.S. companies.
  The San Francisco USEAC outlined        Currently, CS has developed only limited information on
  the following reasons for pursing
  technical assistance opportunities at   the banks’ technical assistance contracts and other direct
  the multilateral development banks:     procurement opportunities. Commerce’s bank websites
  o Billions of dollars in funding for    include some information for U.S. companies interested in
      procurement of goods and            bidding on consulting opportunities at the banks, though
      services.                           they differ significantly in the amount of detail provided.
  o Transparent and consistently
      monitored procurement process.      The San Francisco USEAC was the only USEAC with
  o A “safe” way to establish a market    which we spoke that seemed to be fully knowledgeable
      foothold.                           about technical assistance opportunities at the five banks.
  o Availability of assistance from       It has independently developed a presentation on technical
      Commerce in pursing the             assistance and direct procurement opportunities at the
      opportunities.
                                          banks and has assisted local consulting firms in pursuing
  Source: Presentation prepared by the    such opportunities. As of February 14, 2007, one of these
  San Francisco USEAC                     firms was close to closing its first contract with one of the
                                          development banks.

In order to facilitate outreach to the USEACs and other stakeholders to highlight business
opportunities at the banks, the Advocacy Center should develop more detailed information on
such procurement opportunities at the banks and post this information on appropriate Internet
sites, including export.gov, CS’ intranet sites accessible to USEAC staff, and the CS bank
websites. As it develops this information, the Advocacy Center should leverage the experience
and informational materials developed by the San Francisco USEAC.

B. CS can further improve its outreach on development bank trade opportunities

The Advocacy Center, CS staff assigned to the banks, and a
few USEAC trade specialists have worked in recent years                         Figure 13:
to improve their outreach to U.S. businesses and better                       Bank Seminars
educate them on bank opportunities. The Advocacy Center             In 2005, Commerce’s Advocacy
has held several seminars for U.S. businesses (see Figure           Center and the National Foreign
13), and the center’s director recently traveled to Chicago         Trade Council hosted an “Open the
to promote bank opportunities. He also went to Miami to             Banks” conference in Washington,
begin reaching out to private banks to discuss opportunities        D.C., to educate over 500
                                                                    representatives of U.S. companies
at the Inter-American Development Bank, which can assist            on the variety of bank opportunities
the private banks’ clients by complementing or                      and working with the banks. The
guaranteeing the financing offered by the private banks.            Advocacy Center attracted 170
                                                                    participants to a similar conference,
At least three of CS’ bank officers have conducted                  “Banking on Development,” in New
                                                                    Orleans in March 2006, and plans to
information seminars in the United States on bank                   host another such conference in
opportunities. The officer at the Asian Development Bank            New Orleans in March 2007.
coordinated his seminars with local USEACs. The officer
at the Inter-American Development Bank set up a business            Source: Advocacy Center
information kiosk at the bank’s offices in Washington,



                                                49
U.S. Department of Commerce                                                   Final Report IPE-18322
Office of Inspector General                                                              March 2007

D.C. All of the CS bank officers maintain websites for their banks and send e-mail messages
about bank opportunities to companies that have expressed interest in receiving such
information. While these efforts are useful, many key stakeholders, including USEAC staff,
other TPCC trade finance agencies, and state trade offices are not well informed of trade finance
and direct procurement opportunities at the banks.

The Advocacy Center should take steps to ensure that USEAC staff have current information on
bank opportunities. The USEACs maintain extensive relationships with businesses in their local
communities and need complete information on the banks in order to determine whether bank
opportunities would be useful or relevant for their clients. We found that many USEAC staff are
not well informed of the full scope of bank opportunities so they cannot effectively determine
whether their clients could benefit from such opportunities. A USEAC director told us that he
has received almost no information on bank opportunities. One CS bank officer estimated that
only about 2 percent of USEACs refer companies to the banks, although this officer has begun
visiting USEACs to increase their awareness of bank opportunities. While the director of the
Advocacy Center acknowledged the value of educating USEAC staff on bank opportunities, the
Advocacy Center has not yet provided USEACs with current information on trade finance and
direct procurement opportunities at the banks.

The Advocacy Center also needs to improve outreach to and coordination with other TPCC trade
finance agencies to ensure that clients are referred to the multilateral development banks when
appropriate. The Small Business Administration officials with whom we spoke were unaware of
trade finance opportunities at the banks. OPIC refers clients to officials at the banks but does not
routinely refer them to CS bank officers. Since CS’ bank officers have a mandate to assist U.S.
companies with business at the banks, OPIC’s clients should be notified routinely that such
assistance is available. OPIC expressed interest in providing information to its finance
specialists on the role of the CS bank officers. ExIm Bank managers also expressed interest in
coordinating more closely with Commerce to ensure that their clients can take advantage of
financing opportunities at the multilateral investment banks when appropriate.

In addition, CS should also expand its outreach to state trade agencies to help ensure that they
have information on bank opportunities, allowing these agencies to refer their clients to the
banks when appropriate. Knowledge of the banks among state trade agencies is inconsistent.
More than half of the 16 state trade agencies we contacted have not worked with the multilateral
development banks and approximately one quarter are not at all familiar with the banks. One
state trade agency is actively engaged in pursuing World Bank and Inter-American Development
Bank opportunities, but a representative from another state said it is “unrealistic and foolhardy”
for a company with no outside marketing representatives to chase procurements at the banks.
Providing additional information to state trade agencies on bank opportunities would help those
agencies make informed decisions on whether the banks can be useful for their clients.

We also found that coordination between the Advocacy Center and the USEACs on business
outreach events should be improved. On at least two recent occasions, the Advocacy Center has
conducted a bank-related outreach event without notifying or inviting the local USEAC office.
The Advocacy Center should include the local USEACs in such outreach events because the




                                            50
U.S. Department of Commerce                                                    Final Report IPE-18322
Office of Inspector General                                                               March 2007

USEACs’ knowledge of the local business community could help ensure that such outreach
events reach the appropriate audience.

Seminars or other outreach events organized for specific banks should also inform the audience
that opportunities exist at the other four multilateral development banks. Currently, CS bank
officers do not always mention that additional opportunities may exist at the other banks when
giving information seminars. The Advocacy Center should ensure that the CS officers at the
banks have information on all of the banks supported by CS, and that the information seminars
on specific banks include basic information on the other banks.

Recommendations:

We recommend that the Under Secretary for International Trade and the Assistant Secretary for
Trade Promotion and Director General of the U.S. and Foreign Commercial Service ensure that
the following actions are taken:

   ¾ Improve U.S. exporters’ access to the finance and business opportunities available at the
     multilateral development banks, by improving information materials on these
     opportunities and expanding outreach by the Advocacy Center and CS representatives at
     the banks. This should include:
          o Providing additional information on trade finance and consulting and other direct
             procurement opportunities at the banks and ensuring that CS’ bank websites and
             export.gov adequately describe or reference these opportunities;
          o Coordinating with other TPCC trade finance agencies to help ensure that their
             clients are referred to multilateral development bank finance products, as
             appropriate, and are informed of the services provided by CS bank officers;
          o Providing additional information on the banks to the state trade offices, in
             cooperation with USEACs;
          o Coordinating the Advocacy Center’s outreach events for businesses with the local
             USEACs; and
          o Ensuring that CS bank officers include basic information on all the banks when
             conducting information seminars for U.S. companies.




ITA’s Response to OIG Draft Report and OIG Comments

In response to our recommendations to improve U.S. exporters’ access to the business and
finance opportunities at the multilateral development banks, ITA provided a detailed discussion
of the Advocacy Center’s ongoing multilateral development bank initiatives, but did not directly
address most of our recommendations. ITA’s response did note that the Advocacy Center
“works closely” with other TPCC trade finance agencies, including Ex-Im Bank, OPIC, and
SBA, to ensure that their clients are informed of relevant finance opportunities at the multilateral
development banks. However, such close cooperation was not evident at the time of our review.


                                             51
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

We encourage the Advocacy Center to continue its engagement with the other TPCC trade
finance agencies through the TPCC trade finance working group, as discussed in Chapter I of
this report, or other means. We also encourage the Advocacy Center to include any other
relevant ITA staff, as well as staff from the other TPCC trade finance agencies, in appropriate
sections of the bank finance training that it has organized for Advocacy Center and bank staff.

ITA’s response also noted that the Advocacy Center is reaching out to private U.S. banks to
inform them of risk mitigation products available through the World Bank and the Inter-
American Development Bank. This initiative is a positive step towards addressing our
recommendation that the Advocacy Center provide additional information on trade finance
opportunities at the banks. ITA did not directly address the other recommendations in our draft
report regarding the multilateral development banks. We ask that ITA provide a more detailed
discussion of ITA’s plans to implement our other recommendations when it submits its action
plan.




                                            52
U.S. Department of Commerce                                                Final Report IPE-18322
Office of Inspector General                                                           March 2007

                        SUMMARY OF RECOMMENDATIONS

We recommend that the Under Secretary for International Trade, coordinating as necessary
with the Secretary of Commerce, ensure that the following actions are taken:
   1. Establish ongoing interagency working groups of the Trade Promotion Coordinating
       Committee (TPCC) to better facilitate coordination and collaboration among federal
       agencies on specific issues related to trade promotion, including trade leads, Internet
       service delivery, trade finance, and trade capacity-building.
   2. Seek to include an appropriate member of the District Export Councils, such as the
      chairman of the District Export Council National Steering Committee, on the President’s
      Export Council.
We recommend that the Under Secretary for International Trade and the Assistant Secretary
for Trade Promotion and Director General of the U.S. and Foreign Commercial Service
ensure that the following actions are taken:
    1. Improve collaboration between CS and state trade agencies by:
           a. Ensuring that state trade officials are credited on CS’ export successes when
               appropriate;
           b. Working with individual states to improve their reporting of export successes that
               CS has worked on;
           c. Pursuing additional collocation of the USEACs and state trade offices when
               practical;
           d. Inviting state trade officials to participate in the TPCC training sessions; and
           e. Inviting relevant state trade officials to join some of ITA’s industry teams.
    2. Strengthen ITA’s and CS’ collaboration with the district export councils by:
           a. Developing a strategic plan defining the councils’ role and how they can
               complement CS’ export promotion activities;
           b. Establishing appropriate mechanisms for the district export councils to provide
               input to ITA on the export assistance needs of small and medium-sized
               companies; and
           c. Finalizing the District Export Council Handbook, integrating relevant information
               from the strategic plan into the handbook.
    3. Better coordinate ITA’s multiple client outreach efforts to help prevent duplication and
       obtain useful feedback from focus groups, the district export councils, ITA’s
       Manufacturing and Services organization, the state trade offices, and others, as
       appropriate.
    4. Establish a joint Commerce-State mechanism for planning and consultation on the
       partnership post program.
    5. In conjunction with the State Department, develop guidance on the partnership post
       program for CS regional posts and State partnership posts that:
           a. Clearly defines the roles and responsibilities of State’s partnership posts and CS
               posts in supporting them, including when CS-State partnerships should exist;
           b. Defines the type and level of support to be provided by each agency;



                                           53
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

           c. Discusses the criteria for determining when diplomatic accreditation of CS
              officers to partnership posts may be appropriate and defines procedures for such
              accreditation; and
           d. Specifies what partnership arrangements are appropriate for posts with BISNIS
              representatives.
   6. Develop performance measures or other appropriate ways of recognizing the efforts of
       CS posts that support partnership posts.
   7. Work with the State Department to develop an appropriate interagency agreement on
       business processes and issue implementation guidance for State and CS posts on
       cooperation related to the partnership post program which:
           a. Establishes a fee collection and pricing structure for partnership post services that
              is consistent with both agencies’ legal authorities for collecting and retaining user
              fees and includes procedures for the transfer and retention of fees, as necessary;
           b. Establishes quality standards for CS-branded services delivered at partnership
              posts and procedures for monitoring the quality of these services;
           c. Defines Commerce’s role in providing training to State officers and staff at
              partnership posts and details any minimum training requirements for State officers
              or staff providing CS-branded products and services;
           d. Defines procedures for reporting export successes at partnership posts, specifying
              how the reporting structure will credit staff from different agencies and will avoid
              double-counting export successes that Commerce and State report to Congress.
   8. Enhance Commerce-State cooperation at partnership posts by:
           a. Providing all partnership posts with active commercial programs direct access to
              CS business-essential web-based tools and coordinating with State to broaden
              partnership post access to any other relevant CS or ITA IT systems;
           b. Coordinating with State to (1) integrate the commercial websites of CS and State
              overseas offices, (2) provide appropriate space for partnership post websites on
              CS’ upcoming Internet platform, and (3) ensure that all partnership posts with
              commercial websites are listed on export.gov;
           c. Coordinating with State to identify which partnership posts have the resources to
              conduct market research and include such posts in CS’ annual market research
              planning process.
   9. In conjunction with the State Department, take steps to help improve USEAC
       cooperation with the partnership posts by:
           a. Providing USEAC staff with more complete information on individual
              partnership posts, including contact information, service availability, and service
              pricing, through CS’ intranet system; and
           b. Opening lines of communication between the State Department’s Bureau of
              Economic and Business Affairs and Commerce’s Office of Domestic Operations
              to provide State with feedback on services provided by partnership posts.
   10. Assign clear responsibility for decision-making on the organization and content of ITA’s
       various Internet websites in order to ensure that this content is well organized and easily
       accessible to exporters.
   11. Improve the organization and content of ITA’s Internet web pages by:
           a. Moving forward with ITA’s plan to move the USEAC websites from buyusa.gov
              to export.gov;


                                           54
U.S. Department of Commerce                                                  Final Report IPE-18322
Office of Inspector General                                                             March 2007

           b. Integrating content from ITA’s various trade promotion websites, such as the
               Trade Information Center, BISNIS, Trade Finance Matchmaker, and
               buyusainfo.net, into export.gov, and decommissioning those that are no longer
               needed;
           c. Considering the addition of real-time Internet chat capability for trade specialists
               in the Trade Information Center and closer collaboration with FedEx or another
               good source to identify and update country-specific tariffs and customs
               procedures;
           d. Coordinating with other TPCC agencies to consolidate each agency’s export-
               related information onto the export.gov portal and include more links to relevant
               content on the TPCC agencies’ websites; and
           e. Ensuring that export.gov contains relevant information about locally-sponsored
               trade events and trade leads listed on CS posts’ buyusa.gov websites, USEAC
               sites, BISNIS sites, and other Commerce web pages.
   12. Consolidate or replicate trade leads and export opportunities identified by all relevant
       TPCC and Commerce organizations in the export.gov trade lead database.
   13. Explore options for improving the technology and specificity employed for the
       export.gov trade lead database including,
           a. Implementation of a cost-effective automatic notification function for matching
               trade leads to a company’s online profile; and
           b. The addition of more specific industry categories for the export.gov trade lead
               database.
   14. Improve U.S. exporters’ access to the business and finance opportunities available at the
       multilateral development banks, by improving information materials on these
       opportunities and expanding outreach by the Advocacy Center and CS representatives at
       the banks. This should include:
           a. Providing additional information on trade finance and consulting and other direct
               procurement opportunities at the banks and ensuring that CS’ bank websites and
               export.gov adequately describe or reference these opportunities;
           b. Coordinating with other TPCC trade finance agencies to help ensure that their
               clients are referred to multilateral development bank finance products, as
               appropriate, and are informed of the services provided by CS bank officers;
           c. Providing additional information on the banks to the state trade offices, in
               cooperation with USEACs;
           d. Coordinating the Advocacy Center’s outreach events for businesses with the local
               USEACs; and
           e. Ensuring that CS bank officers include basic information on all the banks when
               conducting information seminars for U.S. companies.

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
U.S. and Foreign Commercial Service, in consultation with the Director of the National
Institute of Standards and Technology, ensure that the following action is taken:
    15. Facilitate coordination between the Commercial Service and NIST on trade promotion
        issues by:


                                           55
U.S. Department of Commerce                                               Final Report IPE-18322
Office of Inspector General                                                          March 2007

           a. Inviting local Manufacturing Extension Partnership (MEP) offices to participate
               in the district export councils, when practical; and
           b. Inviting MEP officials to participate in relevant meetings and working groups
               organized by the TPCC.
We recommend that the Assistant Secretary for Trade Promotion and Director General of the
U.S. and Foreign Commercial Service, in consultation with the Director of the Minority
Business Development Agency, ensure that the following action is taken:
   16. Facilitate coordination between CS and MBDA on trade promotion issues by:
           a. Inviting local MBDA offices to participate in the district export councils, when
               practical; and
           b. Inviting appropriate MBDA officials to participate in relevant meetings and
               working groups organized by the TPCC.
We recommend that the Under Secretary for International Trade and the Under Secretary for
Economic Affairs ensure that the following actions are taken:
   17. Evaluate ways of improving coordination between ITA and STAT-USA on the
       identification of trade leads to minimize duplication and improve the quality of the
       Department’s trade lead efforts.




                                          56
APPENDIX A: ITA MANAGEMENT RESPONSE TO OIG DRAFT REPORT



                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                       " lAf        1he Deputy Under Secrecary fDr'
                                                        International Trade
                                                        Wtlshington, D, C,   20230




      March 28, 2007


      MEMORANDUM FOR:               Jill Gross
                                    Assistant Inspector General for
                                      Inspections and Program Evaluations

      FROM:                         Michelle O' Neill

      SUBJECF:                      Response to Draft orG Report - Commerce Can Further
                                    Assist U. S, Exporters by Enhancing Its Trade Coordination
                                    Efforts (IPE-18322)


      Thank you for your report recommending ellhanced coordination of export promotion
      efforts. We appreciate your thorough reyiew and haye giyen careful consideration to
      your recornIm:ndations.


      Attached please find IT A' s response.


      Attachment




      C(;;   Israel Hernandez
             Gabo Pcllathy
             David Robinson




                                                                                            &?1"'
                                 ITA RESPONSE: 3118/07

                                     ITA OIG Inspection
                   Commerce Can Further Assist   U.s. Exporters by
                       Enhancing Its Trade Coordination Efforts
                               Draft InspectioD Report
                            No. IPE- 18322JFebrnary 2-007

OIG Coneluslons

1. Opportunities Exist for Greater Collaboration   ",ith Trade Partners

2. Commerce and    the State Department Should Strengthen their Cooperation Efforts to
    Support Partnership Posts

3. Despite Recent Progress. IT    A Can Further Improve the Effectiveness of Its Internet
    Trade Promotion Resources

4. Identification and Communication of Trade Leads Should be Improved
5. CS Can Bener   Communicate Trade Opportunities at the Multilateral Development
    Banks

OIG Recommendations

We recommend that the Under Secretary for IDtematioDaJ Trade, coordinating as
Decessary with tbe Secretary orcommere~ ensure that the ff)Jlowiag actions are
taken :

1. Establish ongoing interagency   working groups of the Trade Promotion Coordinating
   Committee (TPCC) to better facilitate coordination ami collaboration among federal
   agencies on specific issues related to trade promotion, including trade leads, Internet
   service delivery, trade finance. and trade capacity-building.

IT A Response:

During the remainder of me fiscal year, ITA will engage with our TPCC partners using
established or new working groups, to address inues related to trade promotion, trade
leads, Internet service delivery, trade fmance, and trade capacity-building, and other
issues of importance to the U. S. exporting community are addressed in a coordinated and
cooperative manner.

To address specific challenges, the TPCC has regularly established working groups to
improve coordination, solve problems, or plan events. Examples include the
MEFTAfMiddle East working group and the marketing working group. The issues
 related to general trade promotion (not country or industry specific), trade leads, and the
 Internet would be addressed by the marketing working group.

 Separately, lhe TPCC will approach Ex- 1m Bank regarding the feasibility of dcveloping a
 co-guarantee product with the Multilateral Development Banks (MDBs) and explore the
 possibility of engaging a broader group of agencies to look at this issue.

2. Seek to  include an appropriate member of the District Export Councils , such as the
    chairman of the District Export Council National Steering Committee , on the
    President's Export Council.

ITA Response:

ITA will request that the President' s Export Council (PEC) invite the District Export
Council (DEC) national ehairperson to join the PEC.

We recommend tbat the Under Secretary for IatematioDaJ Trade and the Assistant
Secretary for Trade PromotIon and Director General of the U. S. and Foreign
Commercial Seniee eIIsure that the following actions are taken:

1. Improve   collaooration between CS and state trade agencies by:

    a. Ensuring that U. S.   State trade officials are credited on CS' export successes when
        appropriate;
    b. Working with     individual states to improve their reporting of export successes that
        CS bas worked on;
    c. Pursuing additional collocation of the USEACs and state trade offices when
        practical;
    €I. Inviting state trade officials to participate in the TPCC training .sessions; and
    c. In"jting relevant state trade officials to join some of ITA' s industry teams.


ITA Response:

On the locallevcl, partnering is an important part of planning the deli very of export
promotion scrviees Iluough the annual U. S. Export Assistance Center work plans and
individual performance plans. Our measures are collaborative by design, because they
provide an incentive for trade professionals to team with State employees and other
international trade multipliers to solve clients ' problems and assist them in entering new
markets. Our staff is instructed to share credit for client successes, and are evaluated on
this through a collaboration element in their individual performance plans. We have also
developed a national CS Strategic Partnership initiative, in which the States are a key
partner. Collaborating on client successes is an important component of this initiative.

We agree with the OIG recommendations regarding collocation and training and will
continue to look for collocation opportunities. The TPCC is including State trade
officials from Minnesota. Georgia and North Carolina in each of the three training
sessions scheduled for 2007

We agree with the OIG recommendation to invite u. s. State export promotion staff to
join the ITA teams. The Global Teams Director will pursue this working ",ith the State
International Development Organization,

There are fifty CS- S. State relationships each with their own strengths and
opportunities for improvement. We are committed to improving CS-State partnerships
through consistent communication, sharing of best practices. and working together to
effectively deliver trade promotion services to clients.

2. Strengthen IT A' s    and CS' collaboration with the district export councils by:
    a. Developing a      strategic plan defining tbe councils ' role and how they can
          oomplemcnt CS' export promotion activities;
    b.   Establishing appropriate mechanisms for thc district export councils to provide
          input to ITA on the export assistance needs of small- and medium-sized
          oompanies; and
    c.   Finalizing the District Export Council Handbook , integrating relevant intonnation
          from the strategic plan into the handbook.

IT A Response:

The CS works with the DEC Steering Committee nationally, and \'\lith individual DECs
locally, to integrate DEC and CS planning and activities. The DEC Handbook provides
ovcxall guidance on the DEC' s role in the community, and local and national CS
managers help DECs translate ideas into complementary activities.

We also have point ofcont.acts for DOCs to utilize in notifying ITA of the export
assistance needs of small- and mediwn-sized businesses on a regular basis. For
individual DECs, their designated point of contact is the localUSEAC Director who
serves as the DEC Excc:utive Secretary and works with local DEC members daily. The
Deputy Assistant Secretary for Office of Domestic Operations is thc point of contact for
the National DEC Steering Committee, and holds monthly conference calls with them.

The DEC Handbook was updated and distributed in 2005 , and still provides good
guidance. It contains the purpose , mission, and potential acti....ities for DECs. We .vill
review and update the DEC Handbook. where necessary, and distribute it again to ensure
that all members are aware of this valuable and relevant guidance.

3. Better coordinate ITA' s   multiple client outreach efforts to help prevent duplication
    and obtain useful feedback from focus groups, the distriet export councils, IT A '
    Manufacturing and Services organization, the state trade offices, and others, as
    appropriate.
IT A Response:

ITA makes every effort to both cooperate with our ITA colleagues and to avoid
duplication of senices. When eontaeted directly by another IT A unit, CS field staff have
been instructed to aJcrt HQ operation to ensure that we are acting in a coordinated fashion
and that appropriate resources are devoted to an ITA event or activity.

CS Customer Relationship Management Unit (CRMU) focuses its "Voice of the
Customer" Program on eollcding client feedback from our external clients and key
partners regarding their experiences with CS products/services , events, and counseling
sessions. This customer feedback is systematically coltected through OMB approved
comment cards and surveys that are sent on a transactional basis for CS products/services
and eyents, and to clients who have received three or more counseling sessions within a
six. month period. Additionally, tbe CRMU collects client feedback through the
CustomerCare Hotline either by telephone or e.mail and focus groups. The collected data
is analyzed to identify and track trends in order to make business process improvements.
This is an ongoing process to ensure that the CS meets the ever-changing needs of our
customers. CRMU identified trends and methodology were validated with the American
Customer Satisfaction Index (ACSl), an industry benchmark.

IT A units arc working together to improve both U. S. and foreign market research through
increased coordination and cross-unit feedback. Annually, all ITA units have the
opportunity to request specific market research worldwide and to provide feedback all the
requested research. In addition, ITA leams arc: providing feedback to MAS on U.
industry analysis. While significant progress has been made in these areas, ITA can do
more to improye eross.unit coordination and cooperation,

4. Eslablish a  joint Commerce-State Department mechanism for planning and
     consultation on the partnership post program.

IT A Response:

Commerce and State Department are presently negotiating an MOU that would establish
this sort of mechanism. (See draft MOU attached.

As a result of recent coordination efforts, the CS and State Department have identified
points of contact for commercial assistance in every non-CS staffed State Department
post in the world. Having done this, we are now developing an action plan that I)
provides clear policy and procedural guidance to all posts and 2) differentiates levels of
service into three tiers based on market potential and available resources.

The MOU will allow us to establish systematic and regular lines of communication and
eontinucd eoordination improvements.

S.   In conj unction with the State Department. develop guidance on the partnership post
     program for CS regional posts and State partnership posts that:
   a. Clearly defines   the roles and responsibilities of State s partnership posts and CS
       posts in supporting them, including when CS-State partnerships should exist;
   b. Defines the type and level of support to be provided by each agency;
   c. Discusses the criteria for dctcnnining when diplomatic accreditation of CS
       officers to partnership posts may be appropriate and defines procedures for such
       accreditation; and
   d. Specifies what partnership ammgements are appropriate for posts with BISNIS
       representatives.

ITA Response:

CS has provided State Department with a draft MOD. This MOU provides a legal
ftamework fDr Commerce -State Department cooperation, including the ability to
transfer funds to support U. S. companies. (See MOU draft attached).

CS proYided State a eDpY of interim guidance sent to Commercial Service posts and
proposed to use this guidance as the basis for a joint Commerce -State cable with
definitive guidance. This cable will be finalized after the MOU has been signed. This
interim guidance defines roles and responsibilities and the level of support to be provided
by each agency. The guidance also proposes three tiers of State partner posts with
varying levels of activity and support defined for each.

Diplomatic accreditation for CS officers is not necessaJ)" for most partner posts.
However, accreditation is important if the CS officer visits the partner post ftequently
and/or if tho host country of the partner post is dangerous, or w1Stable. Accreditation
may strengthen the CS officers standing with the partner government, or ease entry to the
country. Accreditation is tim~nsuming and the effort expended to acquire
accreditation needs to be weighed carefully against the expected benefits.

The Freedom Support Act funds BISNIS and that funding ends at the end ofFY' O7. A
decision on what. if any, fuootions and personnel ofBISNIS will be taken over by CS is
pending. Irthe CS absorbs some of these functions, then decisions will be made as to the
degree of support that BISNIS contractors can provide to other COWltriCS.

The OIG report notes that a number GeState posts would like to have more support than
they currently receiye. Resource constraints limit the amount of support FCS can
provide; therefore each SCO is expected to make appropriate choices on how to create
the best results from the range of opportunities present in the host country and the
sunounding partner post countries.

The interim guidance to CS posts proposes a three-tier system that would include every
State Department post in the world CS resource constraints would mean that only a
limited number would receive full support. The CS will consult with State Department to
detennine which posts fall into which category.
CS perfonnance measures do recognize CS support for State posts. CS posts may claim
export successes   where they directly assisted in a transaction and the State posts will be
pennitted to gi\' C export (,-redits to the CS post. Further, &nior Commercial Officers
often receive credit for their support of regional activity in the one way that really
matters; in their annual efficiency reports.

The Commercial Diplomacy Success, currently being piloted in the CS , will enable CS
offiecrs to be recognized for accomplishments in partner posts thai faU outside of export
success criteria.

6. Deyelop pafonnanee measures or    other appropriate ways ofrecognizing the efforts
   ofCS posts that support partnership posts.

IT A Response:

On March 8, 2007, CS sent draft guidance (attached) to its ficld detailing the partner p~'t
program. This guidance included a section on performance measures and stated that the
single most import evaluative tool of the partner post program will be export successes.
CS will consider additional performance measures as the partner program becomes
fina)il.ed through the MOD.


7. Work with    the State Department to develop an appropriate interagency agreement on
   business processes and issue implementation guidance for Slale and CS posts on
   cooperation related to the partnership post program which:
   a. Establishes a fee coUection and pricing structure for partnership post serYices that
       is consistent with both agencies ' legal authorities for collecting and retaining user
       fecs and includes procedures for the transfer and retention of tees, as necessary;
   b. Establishes quality standards for CS-branded services delivered at partnership
       posts and procedures for monitoring the quality of these services;
   c. Defines Commerce s role in providing training to State officers and staff at
       partnership posts and details any minimwn training requirements for State officers
       or staff providing CS-branded products and seryices;
   d. Defines procedures for reporting export succe..c;ses at partnership posts , specifying
       how the reporting structure will credit staff from different agencies and will avoid
       double-counting cxport successes that Commerce and State report to Congress.


IT A Response:

es collaborated with OGe and IT A accounting to develop an MOV that covers
procedures for fee collection and transfer of funds between CS and the State Department
Further, tbe MOV details that the CS pricing structure and CS product standards are to be
used at all partner posts. Product quality will be monitored by the responsible seas and
through quality assurance sun' c)-' s that arc sent to the recipients of fcc-fur-servicc
products.
The Interim Partner Post Guidance outlines training requirements for partner posts. CS

reviewing existing partnership post training initiatives and activities and to modify these
programs and materials to better serve the training needs of partnership post staff
worldwide, CS has given the Slate Department both the Interim Partner Post Guidance
and the MOU, and awaits further discussion. Export success reporting, particularly ways
to avoid duplicate reporting is one topic for discussion.

8. Enhance Commerce-State           cooperation at partnership posts by:
    a. Providing     all partnersmp posts with active eommc:tcial programs direct acCC8S   to

          CS business-esscntial web-based tools and coordinating with State to broaden
         partnership post access to any other relevant CS or ITA IT systems;
    b.   Coordinating with State to (1) integrate the commercial websitc:s orcs and State
          overseas offices, (2) provide appropriate space for partnership post websitcs on
          eg' upcoming Internet platform. and (3) ensure that all partnership posts with
          commercial websites are listed on export. go,,;
    c.   Coordinating with State to identifY which partnership posts have the resources to
         condu(;t market research and include such posts in CS' annual market research
         planning process.

ITA Response:

The draft MOU provides State Department Tier I partner posts access to IT tools that are
needed to provide export assistance. The CS is developing a new Client Tracking
System. which will contain company specific data. State Department posts will have
access to this system.

Regarding integration, CS wHi provide appropriate space on cxporLgov, the primary IT A
web-site for exporters for State Department post infonnation. Exportgov presents not
only CS eontrot, but other TPCC agencies ' content as weD and can, in principal, link to
content fiom Slate Department partner posts.

IT A will include State Department in the market research planning process and work
with State partnership posts to develop market research for client benefit..

9. In conjunction with the   Slate Department., take steps to help improve USEAC
     cooperation with the partnership posts by:
     a. Providing USEAC staff with more complete information on individual
        partnership posts. including contact infonnation, service availability, and service
        pricing, through CS' intranet system; and
     b. Opening lines of communication between the State Department' s Bureau of
         Economic and Business Affairs and Commerce s Office of Domestic Operations
         to provide State with feedback on services pwYidcd by partnership posts.
IT A Response:

CS USEACs already cooperate with some State posts, but under the new MOU service
levels will become more consistent and prcdietablc. At many State Depanment partner
posts, USEACs already accept fees for products and deliver services. This new
partnership wil1 expand service to new markets and improve servic~ at posts already
engaged in export assistance.

10. Assign clear respQnsibility for decision- making on the organization and content of
    ITA' s various Internet websites in order to ensure thallhis content is well organized
   and easily accessible to exporters.

ITA Response;

ITA' s Web Governance Board (WGB) was established in February 2006 as the decision
making body responsible for the organization of IT A' s Web eontcnt across all of their
managed web-sites. The authority and purpose of the WGB has been ratified by IT A'
Strategic Planning Leadership Team to provide guidance and leadership for ITA' s Web
presence. One of the primary reasons for the creation of the WGB was to ensure that ITA
content will be delivered to Web users through customer-centric channels. The WGB has
determined that all exporter-related ITA Web content be delivered through the
Export.gov ehannel, foreign buyer related eontcnt to be delivered through the
BuyUSA. gov channel, and publie policy and ITA generic infonnation through the
Trade. goy ehannel

The WOB is overseeing projects to realign cwrent content offerings into those three
customer centric channels. One such project involves bringing the BuyUSA.gov web-site
into the Web Content Management System (WCMS) that is powering Export. gov. As the
BuyUSA.gov content is migrated into the WCMS. the exporter- focused content will
become available through Export.gov. As the content is migrated, the navigational
structure of Export. gO\' will be reviewed and refined to ensure that delivery is as exporter
tiiendly as possible. Doing 80 win leave BuyUSA.gov free to focus on attracting foreif,'O
buyers and investment. The BuyUSA.gov migration project is underway, with t11e first
domestic and international pilots will be completed before the end of FYO? The other
major project underway at this time is migrating content from ita-doc. gov into the same
WCMS as Exportgov and BuyUSA.gov as Trade. gov to provide a single, unified
structure for all IT A public policy and generic infonnation with a single look and feel and
navigation structure.

Ultimately, the goal is to maintain a central repository of all ITA content that is then
delivered to specific audiences in ways that are meaningful and beneficial to them.
Maintaining centralized control of the content will allow ITA to more effectively manage
the eontent by providing a mechanism for controlling the development, organization and
delivery or all of ITA's content The WGB other responsibilities arc to ensure that the
IT A web presence complies with Federal , DOC and ITA web policies and develop
processes for estabJishing new sites, restructuring existing sites and decommissioning
sites.

 11. Improve the organization and content of ITA' s Internet web pages by;
     a. Mo"ing forward with ITA' s plan to mo\'e the USEAC websites ftom buyusa.
                                                                                         go..'
         to export.goy;
     b. Integrating content tTom ITA' s various trade promotion websites, such as the
         Trade Information Center, BISNIS, Trade Finance Matchmaker, and
         buyusainfo. net, into export. gov , and decommissioning those that are no longer
         needed;
     c. Considering the addition of real-time Internet chat capability for trade:: specialists
        in the Trade Information Center and closer collaboration with FedEx or another
        good source to identify and updale country-specific tariffS and customs
        procedures;
    d. Coordinating with other TPCC agencies to consolidate each agency s export
        related infonnation onto the export.go... portal and include more links to relevant
        content on the TPCC agencies ' websites; and
    c. Ensuring that export.gov contains relevant infonnation about locally sponsored
        trade events and trade leads listed on CS posts ' buyusa. gov websites, USEAC
        sites, BISNIS sites, and other Commerce web pages.

ITA Response:

The CS Web Presence Project will move the U. S. Commercial Service USEAC and Post
web-sites to the Stellant Content Management System and is underway. The project
schedule calls for the project pilot sUes to be in the content management system by the
end ofFYO7. Ultimately, the USEACs and the U. S. exporter- facing side of the post sites
will be moved to the export. goy URL.

As ITA and the CS move to the web content management s)'stem, various disparate sites
arc being integrated and/or decommissioned. For example,

Trade IDformatioD Center -- The TIC site has been recently moved entirely into
Export. gov. Most of the TIC online information can be found in the export. go\' Export
Basics section. The URL www. Export.gov/tic now tells the customer that the TIC site
has been moved and where he/she can find the TIC information in export.govo

Trade FiDaDte Matchmaker -- The Trade Finance Matchmaker websilc is not updated
or used by the CS Advocacy Center which took over this program within the Ia.st year.
CS will make a formal request to decommission this site to the IT A Web Governance
Board.

Bllyusainfo.Det - Although this site still exists, only the backc:nd of the system is really
viable, and the URL is not active. The CS Market Research Library uses the databases
built in buyusainfo.net to house and coordinate CS market research. All market research
documents appear within the Exportgov system and eventually the Market Research will
be completely moved to the web content management system. At this time, a
decommissioning request for the buyusainfo. net site will be made and will not affect the
use of the databases for CS market research.

Customcrs could benefit from the addition of real- time lntemet chat capability because it
is one more way to engage a trade specialist. However, most issues are difficuJt to
convey and resolve via on-line instant messaging. Even email is difficult because the
client typically gives partial information on an issue that requires back and forth
exchange to fully understand and properly rcsolyc. However, the TIC will review the
USA. gov website and their Internet chat capability to further consider the option. Other
appropriate steps include: evaluating the technological solution and costs, surveying the
TIC customer base on their preference for using Internet chat. researching benchmarks
and best practices of other government agencies , and deciding on the cost effectiveness of
implementing the chat capability.

TPCC agency eontcnt is inCOIporated into exportgov. For example , on the export.gov
home page this week. Foreign Agriculture Service s programs are featured. Last week it
was OPIC' s upcoming conference in EI Salvador. When Export. gov was being
deYeloped the agencies attended the eontcnt creation meetings and were given the lead in
developing the export finance and investment se4:tions on the site.

The TPCC marketing working group will include export. goy content on its agenda to
make sure that the TPCC agencies are satisfied with their content on Export. gov.

USEAC sites: The Commercial Service Web Presence project team is managing the
migration of all CS website.s from buyusa.gov to Stellent, ITA's new state-of- the-art wcb
content management system, on export.go,,' . This will allow us to ensure that all CS
locally sponsored trade eYents arc also displayed on export. gov. The pilot wm begin in
October 2007.

Oveneas sites: Our overseas local website event and trade lead eontcnt is managed by
local webmasters, and rc- inputting data to eMenu on trade leads and trade events is not
standardized. To automate and improve this process, CS is migrating its overseas
buyusa.gov web presence to Stellant as well.

BISNIS sttes: When BISNIS became part of CS under the ITA reorganization almost
three years ago, we worked closely with acID to try to address the technology aspects of
the integration. BISNIS has a more advanced IT platfonn and the integration of the two
networks presents chaUenges, many ofwmch we were able to address successfully.
However, with regard to trade events. we concluded that building an interface with
eMenu would not be a viable, time worthy, or cost efficient answer. Given that the
BISNIS platform is significantly different and that funding for the office is presently
unclear, it docs not make sense at this time to start such a project. BISNIS is researching
alternatives with OCID to resolve this situation.

Advocacy Center site: The Advocacy Ccntcrrccciycs procurement and projects leads
nom its offices at the multilateral development banks. The Advocacy Center will work
with OCIO to include these leads in eMenu in order to be pushed on to the: export. gov
web-site.

12. Consolidate or rcplieatc trade leads and export opportunities identified by all relevant
    TPCC and Commerce organizations in the export. gov trade lead database.

ITA Response:

An IT A team will conduct a survey ofthe ageneies to ensure that appropriate trade leads
are included in Export. goy. It should be noted that SBA does not have any trade leads,
MBDA trade leads are very few and they are restricted for minority businesses; USAID
projects are essentially U. S. Government domestic procurements, which should not be
included in Export.gov.

13. Explore options for improving the teclmology and specificity employed for the
    export. gov trade lead database including,
    a. Implementation of a cost.effective automatic notification function for matching
        trade leads to a eompany s online profile; and
    b. The addition of more specific industry categories for the export. gov trade lead
        database.

IT A Response:

As we continue to improve export.goy , ITA will incorporate both of these
recommendations to improve the relevance of trade leads to specific exporters and to
proactivcly push trade leads to appropriate IT A clients. Matclring specific trade leads to
a company s profile is an important, but extremely challcngjng endeavor. CS attempted
this through its "buyUSA" initiative ftom FYOO through FYO2 with very limited success.

14. Improve U. S. exporters ' access to the business and finance opportunities available at
    the multilateral development banks, by improving information materials on thest:
    opportunities and expanding outreach by the Advocacy Center and CS representatives
    at the banks. This should include:
    a. Providing additional infonnation on trade finance and consulting and other direct
        procurement opportunities at the banks and ensuring that CS' bank wcbsites and
         exportgov adequately describe or reference these opportunities;
    b. Coordinating with other TPCC trade finance agencies to help ensure that their
        clients are referred to multilateral development bank finance products, as
         appropriate. and are informed of the services proyided by CS bank officers;
    c. Providing additional information on the banks to the state trade offica, in
         cooperation with USEACs;
    d. Coordinating the Advocacy Center s outreach events for businesses with 1he local
         USEACs; and
    e. Ensuring that CS bank officc:rs include basic information on all the banks when
       conducting information seminars for U.s. companies.
ITA Response:

                                      Trade Fillanee

   S. firms are interested in the full range of risk mitigation services offered by the
MDB' s private sector arms incorporating risk mitigation products. The Banks offer "risk
mitigation" services such as insw'anec, project finance, trade facilitation programs,
syndicated loans, equity fmancc, quasi- equity, debt andequity funds, structured finance,
and local curreney financing. The difference is that the MDBs use risk mitigation
strategies and commercial diplomacy to support US companies seeking opportunities for
MDB funded projects.

Risk mitigation is a process whereby many avenues of financial support arc examined in
order to limit the overall risk an organi7.ation undertakes when engaged as either
consultant or supplier in an infrastructure project. While the strategies are ..vide ranging,
generally companies are looking for protection against political risk within the project
country. protection against financial insolvency by local partners, alleviation of currency
exchange rate fluctuations, protection from corrupt business practices, etc. to name a few.
Our MDB liaison offices utilize the products available at our respective banks. as well as
partner commercial banks and other financial institutions to allay the risk faced by
American business engaged in major projects overseas.

                                 Outreach and Advoeaey

We depend on multiplier organizations such as American Chambers of Commerce, U.
State Trade offices, international trade groups, and government agencies to market our
seIYices. We work closely with our sister TPCC trade finance agencies such as Ex-
Bank, OPIC, and SSA to help ensure that their clients are referred to MDB finance
products and are fully wonned of the full range of services offered by MDBs.

Recently the AdYocacy Center held its third annual "Banking on Development
C~nference" in New Orleans that targeted U. S. companies looking for opportunities at
the MUSs. The eonfcrcnce reached over 85 companies with a full day program that
included presentations on: effective business strategies, I\IDB risk mitigation, MOB
procurement, and fIomB financing as a global tool. There was also a presentation by MOB
Executive Directors that focused on the policies and private sector instruments of their
respective Banks. This conference along with each MDB' s annual meetings held in
respective eountrics of operation furthers the efforts ofthc AC MDB Liaison offices to
leverage the limited resources to reach their respeetiyc stakeholders.

A positive example of working with multipliers is tbe World Bank' s Private Sector
Liaison Office (PLSO) strategy. The Bank: has been pursuing an effort to utilize the
resources of the World Bank' s external affairs budget to establish ' private sector liaison
offices ' in the United States. These offices, located in major city centers outside of
Washington, D. . would exist to help explain business opportunitiC$ to the U. S. private
sector. The AClWotid Bank Liaison office is playing a leading role in identifYing and
vetting potential amdidates, and the World Bank would make the final decisions on who
would represent them. Hopefully over time there would be three to five PSLO offices in
the United Stales that could take a great deal of client pressure off of their current
workload. This trees up resources to pursue more strategic projects and policies at the
Bank Group.

                                       Training

To better communicate trade opportunities available at MDBs thc Advocacy Center has
arranged a three-day comprehensive training course for the MDB Senior Commercial
officers, members of the Adv~y Center, and select eommcrciaI specialists from lhe
Banks. This training is scheduled for early April and will include an agenda that co\'
risk mitigation tools, procurement for 8M&. financial instrwnents, and project funding
for both publie and private sectors. This will be the first time that a financial
comprcbcnsive training session has been held    fot the MDB and Advocacy Center

employees by an international financiallraining organization. This will go a long way to
help improve awareness of bank opportunities in order that the AC and MDB offices can
better serve its stakeholders.

                                MDS Caning Program

Another example, the AC World Bank office recognized an opportunity to leverage the
International Finance Corporation s Global Trade Finance Program (GFTP) as part oftbe
ncw risk mitigation strategy. The GFTP recently expanded its ceiling to $1 billion and
comprises a global network of " issuing " (local in-country) banks providing financing to
potential buyers ofD. S. goods and services. The " sweet spot" in the GFfP for U.
exporters and banks is where the U. S. Ex-1m Bank is "off-oover" and Wlwilling to
assume certain risk. The opportunity: many u.S. exporters and banks arc unaware of the
IFC' s GFTP, as well as the European Bank for Rcconstruction and Development'
(E8RD) Trade Facilitation Program (fFP) and Inter- American Development Bank'
(IDB) Trade Finance Facilitttion Program (TFPP).

The objective of the Bank Calling Program is to call on the trade finance departments of
large- , mid-, and small-sized U. S. banks - which arc current acUye users ofEx- Im Bank'
loan guarantee programs - and enroll them as "confmning" banks in the GFTP and
TFPP. This service would allow the u.s. financial services industry to enter nCW markets,
and just as importantly, allow u.S. exporters to reach buyers in new, ftontier markets.
The Bank Calling Program involves traveling to cities with the highest export/import
related activity, and meeting v.ith both banks and exporters to market the GnP and
TFPP programs.

The Advocacy Center (AC) is working in tandem with the IDB to highlight its
partnership with commercial banks, institutional investors, co-guarantors and other eo-
lenders to provide private sector companies with the financing needed to meet the
region s growing demand for infrastructure and enhanced financial markets capacity, The
IDB is constantly m:king to develop new and better options for private financing tailored
to the needs of clients invcsting in its member countries. Together, the Advocacy Center
and IDB are hosting a series of informational sessions with the U. S. banking community
to educate them of the risk mitigation options offered by the IDB. In January 2007, AC
and IDB staff...isitcd Miami to highlight the TFFP. Under the TFFP, the IDB issues
guarantees to international banks to mitigate the risk from eligible Latin American and
Caribbean banks in export and import contracts. The trip agenda included a breakfast
presentation with the Florida International Bankers Assodation and individuaJ meetings
with top bank executives in the Miami community.

In teoos of size, legacy and policy importance, th~ World Bank has a unique role in the
MDB community. Its unique convening power helps place it at the center of new policies
and reforms of crucial interest to the U. S. business community. At the goveming board
level , AClWorid Bank is directly engaged in Bank procedures surrounding payment
issues, on the demand for change in consulting guidelines, on the use of country systems
in procurement, and on global governance and anti-rorruption policies.

The EBRD on the other hand has a truly unique mandate both politically and
economically in its countries of operation. The EBRD bas a mandate to invest in a
majority (or 60 percent) in the private sector. 80 percent ofEBRD investments are in
private sector projects. The EBRD is also the single largest investor in ils 29 countries of
opuation and includes multi-nationaJ staff in all of its membcrcol./ntries. Each project

must contribute to the transition of the country .of opc:ralion from a centrally planned
economy to an open market orientated economy and from authoritarian regimes to multi-
party democracies. Each project goes through a quasi- independent !;Valuation before
presentation and approval. The office of the Chief Economist at the EaRD ewlua.tes the
impact of each project and only those projects rated satisfactory or better can be brought
forward to the Board.

We recommend that the Assistant Secretary for Trade Promotion aDd Director
General oftbe U. S. aDd Foreign Commercial Servieet In consultation with the
Director of the National Illstitute of Standards and TecbDology, ensure that the
following aetioD Is fakeD:

15, Facilitate coordination between the Commercial SerYice and NIST on trade
   promotion issues by.
    a. Inviting local Manufacturing Extension Partnership (MEP) offices to participate
        in the district export councils, when practical; and
    b. Inviting MEP officials 10 participate in relevant meetings and working groups
        organized by the TPCC.

ITA RespDnse:


The CS has bad several informative and promising discussions with senior leaders of the
MEP program. We agree thaI there are several areas where we could benefit clients
through CS- MEP coordination and cooperation. We plan to continue these discussions.
We will bring these recommendations to the attention ofl\.1EP and seek to maximize all
mutually beneficiallinkagcs.

We reeommend that the As5istaDt Seeretary for Trade Promotion aDd Director
Goers) oftbe U.S. aDd Forelp Commercial Senite, in eo.sultatIon with the
Dlreetor of the Minority Business Development Agency, ensure that tbe following
action is taken:

16. Facilitate coordination between CS and MBDA on trade promotion issues by:
    a. Inviting local MBDA offices to participate in the district export councils, when
        practical; and
    b. Inviting appropriate MBDA officials to panicipate in releY3!lt meetings and
        working groups organized by the: TPCC.

IT A Response:

We will extend an invitation to MBDA to attend the next TPCC marketing group
meeting. MBDA is oftc:n invited to participate in CS and TPCC activities.

In the past, ITA and MBDA have successfully partnered on seyerdl u.S. minority
business trade events and missions. IT A would be pleased to rc:-cngage with MBDA to
continue to serve the needs of U. S. minority businesses.

We recommend aIIat the UDder Secretary for InternadoDal Trade aDd the Under
Secretary for Economies and Statisties ensure that the following actions are taken:

17. Evaluate ways of improving coordination between IT A and StatUSA on the
   identification of trade leads to minimize duplication and improve the qualit), oftbe
   Department s trade lead efforts.

IT A Response:

The CS has already communicated with StatUSA regarding this recommendation and
will be meeting with them in early April to explore renewed cooperation opportunitics.
Several years ago, IT A and StatUSA ceased active coordination due to IT A concerns that
StatUSA was selling market research to non- S. finDS in contrast to th~ CS which
limited access to u.S. companies/citizens. We are open to a re-examination of this
relationship.
                                               ~...   :,\                                            ....

APPENDIX B: ESA MANAGEMENT RESPONSE TO OIG DRAFT REPORT


                                                             ) UNITED STATES DEPARTMENT OF COMMERCE
                                                            . The Under SeaNtary far Eaanomio Affairs
                                                                WaSNngtooo D. C. 20230




        MAR 2 8 2007


       MEMORANDUM FOR Jill Gross
                      Assistant Inspector General for Inspections and Program
                      Evaluations

       FROM:                   Cynthia A. GlassmanC           l(
                               Under Secretary for Economic Affairs

       SUBJECT:                fuspector General Draft Audit:         Commerce Can Further Assist
                                  So   Exporters by Enhancing Its Trade CQofdiTUltWII    Efforts


      Thank you for the opportunity to review and provide comments to the subject draft audit
      report. We appreciate the work done by your staffo The draft report contains a number of
      recommendations, but only the last one (page 18) pertains to the Economic and Statistics
      Administration. Our comments are provided below.

      We Recommend that the Under Secretary for IoteroatiooaJ Trade and the Under
      Secretary for .:collomies and Statistics ensure tbat the follO1lt'ing actions are taken:
               Evaluate ways of improving coordination between rrA and STAT- USA on the
               identification oftradc leads to minimize duplication and improve the quality of
               the Department s trade lead effortso

      W c wcrc pleased to see that the report compliments STAT- USA' s work in collecting,
      organizing, and disseminating trade leads. STAT -USA has over 25 years of experience
      in aggregating and posting electronic information to assist American businesses
      academics, and citizens in informed decision making. fu 1994, Congress established the
      Economics and Statistics Administration Revolving Fund under which we were
      authorized to charge fees necessary to recover the full costs incurred in the production of
      clectromcallydisscminated economic information. 15 US. Co ~1527(a).

      Within the past year, we have had some informal discussions with staff from tbe Director
      General' s office of the Commereial Service about consolidating and improving sources
      of information on trade leads. This recommendation serves to encourage us to continue
      in this activity with the goal ofdiminating needless duplication and creating a "one-stop-
      shop" for government trade leads, Futult: coordination efforts with ITA will take: into
      account the user communities that each agency best serves, and that a fee for the
      export. gov portal is not recommended. We ",-ill also be careful not to undennine STAT-
      USA' s revenue stream , as It:commc:ndod in your report.




                                                                                                        l!UJNOJOJa
                                                                                                     AND ST...onHIC~
                                                                                                    M1MJM""'A'nON
Finally, on pages 18 and 50, please revise '"Under Secretary for Economics and
Statistics" to read " Under Secretary for Economic Affairs. "   Also ,   throughout the report
 StatUSA" should bcrcviscd to read " STAT-USA.

cc: Kim White
    Associate Under Secretary for Management
    Economics and Statistics Administration
                                            '!)                ---'


APPENDIX C: NIST MANAGEMENT RESPONSE TO OIG DRAFT REPORT


                                              ~OO
                                                            UNITED DATES DEPAR'IWIENr OF COMMERCE
                                                            NtIcio.... ........ at       &18"'-' ...
                                                                                          T8cIInaIagy
                                                            Gtlith8nJburg. Mer,t81d 2CS99aD1
                                                            OFFICE (F THE DIRECTOR




       MEMORANDUM FOR Johnnie E. Frazier
                                    Inspector General

       Through:          Robert C. CRSanti
                         Under Secretary for TccImoLogy

       From;             William Jeffiey   AJ'v
                         Director ."1'
       Subject:          NIST Response to Draft Inspection Report No. !PR- J 8322 Entitled
                          INTERNATIONAL TRADE ADMINISTRATION:                  Commerce Can Further
                         Assist  r.,~s. Exporlus by Enhancing Its Trade Coordination efforts


       Thank you for providing me 8 oopy      of the draft inspection report entitled.     Commerce Can
       FUl'lhe,.   Assi" Us. &:pol't8l'$ by Enhancmg lt$ Trade Coordination efforts          NIST takes its
       responsibility to support the efforts oflhe IntematioM1 Trade Administration very seriously.
       The Manufacturing Extension Partnership (MEP) has begun addressina your
       recommendations through work with the District Export Council (DEC) and the Trade
       Promotion Coordinatins Committee. This work includes providing additional services to
       organizations like the u. s. Export Assistance Cenler (USEAC) an4 the Baltimore DEC. An
       example   of this is the cooperative: ckvelopment by MEP. the Baltimore: DEC. and the
       USEAC , ora course named "Export Tech", This course assists companies in the
       development of action plans to mark~ technoloi)' products ovme:as. NlST will continue to
       work with the Assistant Secretary fOr Trade Promotion and the Director 0enera1  of tile U.
       anG Foreign -Commercial Service to ensure that coordination between NIST ami the
       Commercial Service is improved.

       Thank you for the opportunity to review and comment on the draft report. I look forward to
       receiving the rmal version. If you have any questions please contact Steve Willen on (301)
       975-8707.




                                                                                                  Nt5r
APPENDIX D: MBDA MANAGEMENT RESPONSE TO OIG DRAFT REPORT

                                                 "t o. co
                                                                      UNITED STATES DEPARTMENT - COMMERCE
                                                                              ...1-
                                                                      MlIIDrity      D8v81oplll8nt JIttIInq
                                                                      Washington, DC 20230
                                               ".r.. of




       JI,'larch 31 , 2007



       MEMORANDUM FOR;               Jill Gross
                                     Assistant Inspector general for Inspections and
                                      Program Evaluations

       FROM:                         Ronald J. Marin        d._~J.,

                                     Financial Management             Offi~ ( -
       SUBJECT:                      DRAFT DIG Report
                                     Commerce CanjUrlher A~'sisl             CiS,   Exporters by Enhancing
                                     lis trade Coordination Effom (IPE- J8322)


       MBDA has reviewed the draft document and coneurs v.ith the r~ommendations. MBDA
       will attempt to coordinate with ITA on trade promotion issues by seeking to participate
       on district export councils and in meetings and working groups organi7.ed by the TPCC.
       MBDA welcomes       exporto gov to include links to its portal, including the Phocnix
       Opportunilie. database. as a means to further identify trade leads for exporters.

       Thank you for providing MBDA with the opportunity to review the draft report If you
       have any questions or wish to discuss further, please feel nee to eontact mc on 202.482-
       1621 or rma)'in:~mbda.go\'.
